No.

IN THE

SUPREME COURT OF THE UNITED STATES

MICHAEL J. BEVER,
Petitioner,
V.

STATE OF OKLAHOMA,
Respondent.

On Petition for a Writ of Certiorari to the

Oklahoma Court of Criminal Appeals

PETITION FOR A WRIT OF CERTIORARI

Stuart W. Southerland

Counsel of Record
Tulsa County Public Defender's Office
423 South Boulder Ave. #300

Tulsa, OK 74103
(918) 596-5530
stuart. southerland@oscn. net

Attorney for Petitioner

QUESTIONS PRESENTED
1. Whether a judge's decision to sentence a juvenile offender to consecutive terms
is exempt from Eighth Amendment review.

2. Whether a judge's decision to run Petitioner's sentences consecutively for an
aggregate no-parole term of 215 years violates the Eighth Amendment when a
jury has made a specific finding that the State had not proven Petitioner to be
permanently incorrigible and irreparably corrupt.

3. Whether — given the jury's finding that the State had not proven Petitioner to
be permanently incorrigible and irreparably corrupt - the Sixth Amendment
requires Petitioner s sentences to run concurrently in order to provide him with
a meaningful opportunity for release.

TABLE OF CONTENTS

Question Presented....................................................................................... i
Table of Authorities.............................................................. .................... .. iv
Petition for a Writ of Certiorari........................................................................ 1

Opinions and Orders Below............................................................................ 1
Jurisdictional Statement............................................................................... 1

Statement Regarding Proceeding In Forma Pauperis.......................................... 1
Constitutional and Statutory Provisions Involved...... ......... ....... .... ....... 2
Introduction................................................................................................. 3
Statement of the Case.............. ........ ......... ............................................. 6

I.

Factual Background......................... ...... ........ ............. .6

II.

Procedural History.... ...... ...... ...... ...... ...... ....... ...... 7

Reasons for Granting the Petition. .................................................................

10

A. State courts of last resort are divided as to whether

the Eighth Amendment has any application to aggregate
sentences served by juvenile offenders.

10

B. A judge's decision to impose consecutive sentences for crimes

committed by a juvenile offender is not exempt from
Eighth Amendment protection.

15

C. The sentencing judge was bound under the Sixth Amendment
by the jury's finding that the State had failed to prove Petitioner
to be irreparably corrupt.

Conclusion.

23

26

APPENDIX

1. Verdict Forms..................................................................................... 1

2. Sentencing Transcript............... .. ........ .......... ........................... .... 7
3. Judgment and Sentence....................................................................... 15
4. Oklahoma Court of Criminal Appeals Opinion........... ....... ........... .... 19
5. Letter from Jurors Requesting Concurrent Sentences..... ...... .. ... ... 35

Ill

TABLE OF AUTHORITIES

Cases

Apprendiv. New Jersey, 530 U. S. 466 (2000)......... ....... ..............

23, 24, 26

AtMnsv. Vj'rg-inia, 536 V. S. 304(2002)....................... .... ....... ......

19

Bear CJoudv. State, 2014 W^ 113, 334 P. 3d 132 (Wyo. 2014) ................ ....

12

Beverv. State, 20200KCR13, 467P.3d693 .................... 1, 9, 10, 13, 14, 15,
16, 17, 24
Commonwealth v. Foust, 2018 PA Super 39, 180 A. 3d 416 (2018) ............... 14

Cannon v. State, 456 S.W. 3d 594 (Tex. Ct. App. 2015)...... ............. ........ 14
Carter v. State, 461 Md. 295, 192 A. 3d 695 (2018)........ ...... ............. ....

11

Duncan v. Louisiana, 391 U. S. 145(1968)............................. ........... ..

23

Eddingsv. Oklahoma, 4:QK)V. S. 104:{'\. W£)........................................ ... 5
Ewingv. California, 538 U. S. 11(2003)................................. .............

18

Furman v. (9eojg2"a, 408 U. S. 238(1972).................................................

20

Kennedy v. Louisiana, 554 U. S. 407(2008) ..... .................................

20

Godfreyv. Georg-i'a, 446V. S. 420(l980').. ...... ........ ...........................

21

Graham v. Florida, 560 U. S. 48 (2010) ......... .............

4, 10, 12, 13, 16, 19,
20, 22, 27

Henry v. State, 175 So. 3d 675 (Fla. 2015), cert. denied,
136S. C1 1455(2016).................................................................. .. ..... 10
Hobbsv. Tuj-ner, 431 S. W. Sd 283 (Ark. 2014)........................................... 13
Ira v. Janecka, 419 P. 3d 161 (N. M. 2018)...... .... .............................

11

Kennedy v. Louisj'ana, 554V.S. 407 (2008)...... ...... .......... ......

19

IV

^777^7 v. Per^o72, 417 P. 3d 401 (Or. 2018)............................................

14

Lucero v. People, 2017 CO 49, 394 P. 3d 1128 (2017),
cert. denied, 138 S. Ct. 641 (2018).............................. ........................

13

Mason v. State, 235 So. Sd 129 (Miss. Ct. App. 2017).................................

13

Miller v. Alabama, 567 U. S. 460 (2016)........................ 4, 10, 11, 12, 13 16, 18,
19, 20, 22, 26
M'ontgomery v. Louisiana, 136 S. Ct. 718 (2016). ............. 3, 4, 10, 11, 13, 14,
16, 21, 22
Oregon v. Ice, 555 U. S. 160, 168 (2009)........... .......... ...................

24, 26

PeopJev. Aponte, 981^.^.S. 2d 902 (Sup. Ct. 2013)..................................

13

People v. 7?eye5, 63 N. E. Sd 884 (111. 2016)............ ...... ...... ..............

11

J?inffv. Arizona, 536V. S. 584 (2002)......... .. ...... ...... ......... .........

23

ffobinsonv. State, 370 V. S. 660 (1962)............... ....... .. ...............

Roper v. Simmons, 543 U. S. 551, 573 (2005)...... ..........

10, 18

3, 4, 5, 14, 16, 20

*S'o7e722 y. ^e7722, 463 U. S. 277 (1983)...... .. ...... .......... ...... .....

19

State v. Ali, 895 N. W. 2d 246 (Minn. 2017),
certdenied, 138 S. Ct. 640 (2018)................................................ ........

13

State v. Boston, 363 P. 3d 453 (Nev. 2015)................................ ........

11

State v. Castaneda, 295 Neb. 547, 889 N. W. 2d 87,
cert. denied, 138 S. Ct. 83 (2017)................................. .........................

13

State v. Kasic, 265 P.3d. 4.10 (Ariz.Ct. App. 20lD.. ........ ............ ........

12

State v. Merritt, No. M2012-00829-CCA-R3CD, 2013 WL 6505145
(Tenn. Crim. App. 2013)...................................................... .. .......

14

State v. Moore, 149 Ohio St. 3d 557, 76 N. E. Sd 1127 (2016)

cert. denied, 138 S. Ct. 62 (2017)...........................................................

11

State v. Nathan, 522 S. W. Sd 881 (Mo. 2017)............................... ...........

13

State v. NuH, 836 ]^.W. 2d 41 (lowsi 2015). ......... ...... ...... ..........

11

State v. Ramos, 387 P. 3d 650, cert. denied, 138 S. Ct. 467 (2017)... .. ..... 12
Statev. Eedmon, 380~P. 3d718(Kan. Ct. App. 201G).................................

13

State v. Riley, 315 Conn. 637, 110 A. 3d 1205, cert. denied,
ISGS. Ct. 1361(2015)..................................................... .......... ..... 10
State v. Slocumb, 827 S. E. 2d 148 (S. C. 2019)......................................... 14
State v. Zuber, 227 N. J. 422, 152 A. 3d 197, cert. denied,

138S. Ct. 152, (2017)..........................................................................

11

Stevensv. State, 20180KCRll, 422P. 3d741......................... 3, 9, 21, 23
Thompson v. O^ajioma, 487 V. S. 815 (1988). ......... ........... ......... .5
Tuilaepav. (^Tyyo^ja, 512 U. S. 967 (1994)..... .. ........ ............ ....... .....

21

Veal v. State, 303 Ga. 18, 810 S. E. 2d 127,
cert. denied, 139 S. Ct. 320 (2018)..........................................................

13

Constitutional Provisions

2, 23, 24

U. S. Const. amend. VI.

U. S. Const. amend. VIII..................... 2, 3, 5, 8, 10, 11, 12, 13, 14, 15, 16, 17,
18, 19, 21, 22, 23
U. S. Const. amend. XIV.............................................................. 2, 10, 23

Statutes

28U. S. C. § 1257(a)............................................................................. 1
10AO. S. 2011, §2-5-205CA)... ...... ........ ................................... 8
210. S. Supp. 2015, 13. 1.... ...... ....... .......... ..................... .....

9, 27

22 O. S. 2011, § 926. 1........ ....... ......... ...........................................

8, 9

220.S. 2011, §976...................................................................... 2, 15, 25

VI

Other Authorities

The Campaign for the Fair Sentencing of Youth, Tipping Point: A
Majority of States Abandon Life- Without^Parole
Sentences for Children (2018).

Vll

PETITION FOR A WRIT OF CERTIORARI

Petitioner Michael Bever respectfully petitions this Court for a writ of
certiorari to review the judgment of the Oklahoma Court of Criminal Appeals.

OPINION AND ORDER BELOW

The opinion of the Oklahoma Court of Criminal Appeals is reported at Bever
v. State, 2020 OK CR 13, 467 P. 3d 693.

JURISDICTIONAL

STATEMENT

The Oklahoma Court of Criminal Appeals affirmed Petitioner's convictions on
June 25, 2020. The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

STATEMENT REGARDING PROCEEDING IN FORMA PAUPERIS

Petitioner was represented by appointed counsel both at the trial level and the
appellate level in Oklahoma. A motion to proceed in forma pauperis has been filed
with this Court.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Eighth Amendment to the United States Constitution provides: Excessive bail
shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted.

The Sixth Amendment to the United States Constitution provides: In all criminal
prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein the crime shall have been committed,
which district shall have been previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be confronted with the witnesses against
him; to have compulsory process for obtaining witness in his favor, and to have the
Assistance of Counsel for his defense.

The Fourteenth Amendment to the United States Constitution, Section I provides:
All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the state wherein they reside. No
state shall make or enforce any law which shall abridge the privileges or immunities
of citizens of the United States; nor shall any state deprive any person of life, liberty,
or property, without due process of law; nor deny any person within its jurisdiction
the equal protection of the laws.
22 0.S.2011, § 976 provides: If the defendant has been convicted of two or more
offenses, before judgment on either, the judgment may be that the imprisonnient
upon any one may comnience at the expiration of the imprisonment upon any other
of the offenses. Provided, that the sentencing judge shall, at all times, have the
discretion to enter a sentence concurrent with any other sentence.

INTRODUCTION

This case presents an opportunity for this Court to clarify the parameters of
the United States Constitution's application to life-without-parole sentences for
juvenile offenders. The Oklahoma Court of Criminal Appeals has refused to extend
Eighth Amendment protection to a judge s decision to impose consecutive life terms
when sentencing a juvenile offender. The question presented - whether the Eighth
Amendment applies to the consecutive sentencing decision — is narrow, but this
Court's ruling will have broad application.1 Granting certiorari will provide much
needed direction to numerous state courts that have struggled with this Court's
efforts to limit no-parole sentences to only "the rare juvenile offender whose crime
reflects irreparable corruption. " See Roper v. Simmons, 543 U. S. 551, 573 (2005).
Through its judicial branch, Oklahoma has implemented a procedure for
separating juveniles "whose crime reflects unfortunate yet transient immaturity"
from "the rare juvenile offender whose crime reflects irreparable corruption." In
Stevens v. State, 2018 OK CR 11, 422 P. 3d 741, the Oklahoma Court of Criminal

Appeals Grafted - with legislative precision - a sentencing procedure for courts to

1 The United States is the only country in the world that sentences children to die in prison.
Well over 1, 000 inmates are serving life-without-parole sentences in this country for offenses
committed when they were children. See The Campaign for the Fair Sentencing of Youth,
Tipping Point: A M. ajority of States Abandon Life- Without Parole Sentences for Children 2,

7 (2018). https:www. fairsentencingofyouth. org/wp-content/uploads/Tipping-Point. pdf
[https://prma. cc/GD4E-VC6G] While the number serving these sentences solely because of
consecutive sentencing decisions is unknown, the sheer number of states refusing to apply
Eighth Amendment analysis to juvenile offender consecutive sentencing decisions suggests a
significantnumber. See list on pages 12-14 of this petition.

follow when a juvenile offender is charged with an offense carrying the possibility of
life without parole. The Stevens decision requires an Oklahoma jury to make a
finding that a juvenile is permanently incorrigible and irreparably corrupt2 by proof
beyond a reasonable doubt before it can consider imposing a sentence of life without
parole. Michael Bever's jury concluded that the State had not proven Petitioner to be
a juvenile "whose crime reflects irreparable corruption" and imposed a life sentence

with the possibility of parole. (Appendix 1-4) The judge who formally sentenced
Petitioner accepted this finding, but then reversed course and imposed an aggregate
prison sentence from which Michael Bever will never be released.
Realistically, the Oklahoma Court of Criminal Appeals has exempted a class
of juvenile offenders — those convicted of multiple crimes and sentenced to consecutive
ternis — from

Miller's promise that only those juvenile offenders found to be

irreparably corrupt can be sentenced to die in prison. In other words, a juvenile facing
a life-without-parole sentence is entitled to the Eighth Amendment

protection

guaranteed by TlAT/ej" if he is convicted of a single count, while a juvenile convicted of
multiple counts is not. Without authority from this Court, the Oklahoma Court of

Criminal Appeals has established a class of juvenile offenders for whom the Eighth
Amendment has no application, regardless of the offender's culpability or capacity for

2 The Oklahoma Court of Criminal Appeals requires a finding of permanent incorrigibility
and irreparable corruption before a sentence of life without possibility of parole can be
imposed for an offense committed as a juvenile. Petitioner believes that "permanently
incorrigible" and "irreparably corrupt" are synonymous and therefore this petition will often
refer only to a finding that the State failed to prove "irreparable corruption. " This Court's
jurisprudence uses the language interchangeably. See Montgomery v. Louisiana, 136 S. Ct.

718, 726, 733-35 (2016); Miller v. Alabama, 567 U. S. 460, 471, 479-80 (2016); Graham v
Florida, 560 U.S. 48, 68, 76-77 (2010); Roper v. Simmons, 543 U. S. 551, 570, 573 (2005)

change. Neither Graham nor Ivliller suggest this as acceptable; while nonhomicide
juvenile offenders are treated differently than homicide juvenile offenders, all
juvenile offenders are entitled to Eighth Amendment protection that requires them
to be treated differently than adults. Juvenile offenders are not exempt from this
protection simply because they have been convicted of multiple crimes.

It is fitting that this Court choose an Oklahoma case to provide the requested
direction. The Oklahoma Court of Criminal Appeals has historically demonstrated an
inclination to treat juveniles charged with serious crimes as though they were no
different from adults. Since the reinstatement of the death penalty in 1976, only 22
people have been executed in this country for crimes committed as a juvenile. The
youngest was an Oklahoman - Sean Sellers - who was executed in 1999 for a triple
homicide committed when he was sixteen. Years earlier, when the State of Oklahoma

sentenced Williani Thompson to die in 1984 for a murder committed when he was
fifteen, this Court intervened and stopped his execution. Thompson v. Oklahoma, 487

U. S. 815 (1988) held that it was unconstitutional to execute a juvenile for a crime
committed at age fifteen or younger. Thompson was also the first case after the

moratorium on capital punishment was lifted in 1976 to identify a juvenile offender's
death sentence as a categorical violation of the Eighth Amendment. 3 Finally,
Oklahoma holds the dubious distinction of being the last state to execute someone for
a crime conimitted as a juvenile. Scott Alien Hain was executed on April 3, 2003, for

3 Eddings v. Oklahoma, 455 U. S. 104 (1982), while addressing an Oklahoma judge's refusal
to consider mitigation in death penalty case where the petitioner was only sixteen at the time
of the offense, dealt with mitigation in more general terms and did not categorically prohibit
the execution of sixteen-year-old juvenile offenders.

a double homicide he committed when he was seventeen. Two years later, this Court
decided Roper v. Simmons, 543 U. S. 551 (2005), which finally put an end to the
execution of juvenile offenders in the United States.
STATEMENT OF THE CASE

I.

Factual Background
Michael Bever and his older brother Robert lived in a middle-class suburban

home with their parents and five siblings, all of whom were younger than Michael.
Michael Bever's parents distrusted strangers and rarely ventured outside the house

unless absolutely necessary.4 The children were forced to live the lifestyle dictated by
their parents; they grew up with few friends in an isolated environment and would
sometimes go months without leaving the house.
Mrs. Bever home-schooled the children, but she only had a seventh grade
education. JVtichael never went to school, and as he grew, more and more of his
education became the responsibility of his older brother. Robert was Michael's role
model, mentor, and best friend. Robert was also a seriously disturbed young man with
untreated mental illness whose thoughts became increasingly unhinged from reality
as he grew older. Unfortunately, he took his younger brother Michael with him down
this path as the two boys retreated into a world filled with fantasy and role-playing

4 ]V[uch of the factual background was included in the decision on direct appeal by the
Oklahoma Court of Criminal Appeals. The majority devoted eleven paragraphs of the Bever
decision to a detailed description of Petitioner's crimes. The sufficiency of evidence was not
an issue on appeal.

games. Robert enjoyed playing these games online, where he had created a least a
hundred different personalities.
Many of Robert's fantasies were violent and he lay awake at night talking to
his younger brother about his plans to kill people. Michael participated in his
brother's fantasies by pretending to scout out locations and stock up on supplies; he
initially assumed that it was all part of another role-playing game. This all changed
in 2015, when Robert purchased body armor and the brothers talked about killing
their family before escaping to go on a crime spree that would make them famous.
Michael Bever was only sixteen years old on July 22, 2015, when he and his
eighteen-year-old brother carried out the plan to kill their family. Too young to obtain
guns, they used knives. By the early morning hours of July 23, 2015, everyone in the
Bever family had been stabbed to death except for the youngest, who was only two
years old, and Michael's sister, who was seriously injured but ultimately able to
recover from her wounds. Unsure as to what to do next after leaving the house, Robert
and Michael retreated to a nearby dry creek bed where they were quickly
apprehended.

II.

Procedural History
A week after the Bever brothers' arrest, the district attorney filed charges

alleging five counts of first degree murder and a single count of assault and battery
with intent to kill. As an adult, Robert Bever entered pleas of guilty as charged on
September 7, 2016. He received a life-without-parole sentence for each of the five

murder counts, along with a life sentence for a single count of assault and battery
with intent to kill. All of Robert's sentences were ordered to run consecutively.
Michael Bever, although a juvenile at the time of the alleged offenses, was tried
as an adult. 5 A jury convicted him of all counts. Michael Bever requested jury
sentencing, as is his right under Oklahoma law,6 and the jury heard evidence
pertaining to the individualized sentencing considerations required by M'iller v.
Alabama, 132 S. Ct. 2455 (2012) and Montgomery v. Louisiana, 136 S. Ct. 718 (2016).
Defense counsel presented evidence that ]V[ichael Bever had full scale I. Q. of 85,
which placed him in the low normal range. A neuropsychologist testified that Michael
Bever suffered from brain dysfunction that could have been the result of a traumatic
brain injury or a birth defect. There were few medical records available because
Michael's parents rarely took the Bever children to the doctor. Given these issues,
combined with the well-documented developmental limitations of a sixteen-year-old
juvenile's brain, the expert witness testified that in a high stress environment it was
very likely that Michael would have frozen in place and not known what to do. Bever,
1f41. Although Michael Bever initially confessed to police officers that he killed three
family members, during Robert Bever's testimony at trial he took credit for the actual

5 10A 0.S. 2011, § 2-5-205(A) permits Oklahoma children as young as 13 who are accused of
first degree murder to be tried as an adult. Paragraph B of the statute requires juveniles
charged with first degree murder who are 15, 16, or 17 to be tried as an adult.

6 22 O. S. 2011, § 926. 1 provides:
In all cases of a verdict of conviction for any offense against any of the laws of
the State of Oklahoma, the jury may, and shall upon the request of the
defendant assess and declare the punishment in their verdict within the

limitations fixed by law, and the court shall render a judgment according to
such verdict, except as hereinafter provided.

murders. According to Robert, Michael acted as an accomplice and did not kill anyone.
Neither Robert nor his sister saw Michael attack anyone. Bever, ^3.
On June 25, 2018, the day before the jury received its final instructions in
IVIichael Bever's jury trial, the Oklahoma Court of Criminal Appeals decided Stevens
v. State, 2018 OK CR 11, 422 P. 3d 741. Stevens prescribed the procedure to be
followed in juvenile life-without-parole cases. In Oklahoma, a jury considering a lifewithout-parole sentence for a juvenile offender must be instructed that before
imposing such a sentence it must unanimously find that the State has proven, beyond
a reasonable doubt, that the defendant is irreparably corrupt and permanently
incorrigible. Michael Bever's jury was so instructed, and the jury made a specific
finding that the State had failed to prove Michael Bever to be irreparably corrupt and

permanently incorrigible. (Appendix 1-4) The jury imposed the minimum sentence of
life with possibility of parole in each of the five counts of first degree murder, and a
twenty-eight year sentence for assault and battery with intent to kill.
Under Oklahoma law, a judge formally imposes the sentence previously
determined by a jury.7 The judge is not free to do as she pleases; Oklahoma law
requires that she render judgment according to the jury's verdict. 8 The jury does not,
however, determine whether sentences are run consecutively or concurrently. That
decision is reserved for the court. On August 9, 2018, the Honorable Sharon Holmes

7220. S. 2011, §926.1
s Id.

sentenced Michael Bever to consecutive terms. 9 Under Oklahoma law, JVIichael Bever

will not be eligible for parole until he has served over 215 years in custody. 10
In Bever v. State, 2020 OK CR 13, 467 P. 3d 693, the Court of Criminal Appeals
affirmed Michael Bever's convictions and sentences. The court held that Eighth
Amendment analysis only requires a reviewing court to look at each individual
sentence, rather than an aggregate total that will never provide any opportunity for
a juvenile offender's release.

REASONS FOR GRANTING THE PETITION

A. State courts of last resort are divided as to whether the Eighth Amendment11
has any application to aggregate sentences served by juvenile offenders.
In at least eleven states, including Connecticut, Florida, Illinois, Iowa,
Maryland, Nevada, New Jersey, New Mexico, Ohio, Washington, and Wyoming, state
courts of last resort have determined that the rule announced in Graham and Miller

applies to an aggregate term-of-years sentence that results in the functional
equivalent of life without parole.

1. State v. Riley, 315 Conn. 637, 110 A. 3d 1205, cert. denied, 136 S. Ct. 1361
(2015) (Juvenile offender was convicted of murder, attempted murder, first
9 A number of jurors submitted a letter to the sentencing judge asking that Michael Bever

receive parole consideration. C^ppendix 35)
10 21 O. S. Supp.2015, § 13. 1 mandates that for enumerated violent offenses an inmate must
serve at least 85% of his sentence before becoming eligible for parole. For first degree murder,
juries are instructed that an inmate wiU not be eligible for parole until he has served 38 years

and 3 months (85% of 45 years). Once paroled on one count, Michael Bever would then begin
his second life term, and so on, until his death.

n The Eighth Amendment applies to the states through the Fourteenth Amendment of the

United States Constitution. Robinson v. State, 370 U. S. 660 (1962).
10

degree assault, and conspiracy to commit murder. The court found that the noparole 100-year aggregate sentence violated 8th Amendment absent Miller
findings. );

2. Henry v. State, 175 So. 3d 675 (Fla. 2015), cert. denied, 136 S. Ct. 1455

(2016)(Juvenile

nonhomicide

offender's

aggregate

no-parole

minimum

sentence of 90 years provided no meaningful opportunity for release in

violation of the 8th Amendment. );

3. People v. Reyes, 63 N. E. 3d 884 (111. 2016)(Juvenile was convicted of first degree
murder and two counts of attempted murder. Without Miller findings,
aggregate no-parole minimum term of 89 years violated the 8th Amendment. );

4. State v. Null, 836 N. W. 2d 41 (Iowa 2015)(Juvenile was convicted of second

degree murder and first degree robbery. His aggregate no-parole minimum
sentence of 52. 5 years was sufficient to trigger A^T/er protections. );
5. Carter v. State, 461 Md. 295, 192 A. 3d 695 (2018) (Juvenile was sentenced to
100 years with parole eligibility at 50 years. The court found the sentence of
100 years, comprised of consecutive maximum sentences for assault
convictions arising out of a single incident, to be tantamount to a sentence of
life without parole for purposes of 8th Amendment. );
6

State v. Boston, 363 P. 3d 453 (Nev. 2015) (Juvenile was convicted of numerous

nonhomicide offenses including burglary, lewdness with minor, battery,

kidnapping sexual assault, and robbery. He was sentenced to 14 consecutive

life terms with possibility of parole plus a consecutive term of 92 years in
prison. The court applied the "functional-equivalent" approach to 8th
Amendment analysis. The court denied relief because after the juvenile
offender was sentenced, the legislature enacted a statute establishing juvenile
parole eligibility at 15 years. );

7. State v. Zuber, 227 N. J. 422, 152 A. 3d 197, cert. denied, 138 S. Ct. 152,

(2017)(The court looked at two juvenile sentences. One was an aggregate

nonhomicide sentence of 110 years imprisonment with parole eligibility at 55
years; the second sentence was for robbery and murder that totaled 75 years
with parole eligibility at 68 years and 3 months. The New Jersey Supreme
Court found these aggregate sentences lengthy enough to trigger Millerior the

purpose of 8th Amendment analysis. );

8. Ira v. Janecka, 419 P. 3d 161 (N. M. 2018) (Juvenile was ultimately sentenced to
an aggregate 911/2-year sentence for nonhomicide offenses including criminal
sexual penetration, aggravated battery, and witness intimidation. The court

found that the 8th Amendment applied to an aggregate term-of-years sentence;
11

however, parole eligibility at age 62 provided a meaningful opportunity for
release. );
9. State v. Moore, 149 Ohio St. 3d 557, 76 N. E. Sd 1127 (2016) cert. denied, 138

S. Ct. 62 (2017) (Juvenile's aggregate 112-year prison term for multiple
nonhomicide offenses violated the 8th Amendment as exceeding juvenile's life
expectancy. Juvenile was not eligible to seek judicial release for 77 years. );
'[.0. State v. Ramos, 187 Wash.2d 420, 387 P. 3d 650, cert. denied, 138 S. Ct. 467

(2017)(Court agreed that ]\filler applies to a de facto life-without-parole
sentence; specifically, to the juvenile offender's 4 consecutive life terms for
murder and felony murder which ultimately totaled 85 years. Under the facts
of Rainos, the court concluded that the juvenile offender had an adequate
M'iller he aring. );
11. Sear Cloud v. State, 2014 WY 113, 334 P. 3d 132 (Wyo. 2014) (Juvenile was
convicted of first degree murder, aggravated burglary, and conspiracy to
coinmit aggravated burglary; aggregate sentence ultimately amounted to life
with possibility of parole after serving 25 years, to run consecutively to a
previously imposed sentence of 20 to 25 years. The juvenile's earliest
opportunity for release would be in just over 45 years. The Wyoming Supreme
Court held that Miller applied to the aggregate terms for 8th Amendment

analysis.)
However, in sixteen other states, including Arizona, Arkansas, Colorado,
Georgia, Kansas, Minnesota, Mississippi,Missouri, Nebraska, New York, Oklahoma,
Oregon, Pennsylvania, South Carolina, Tennessee, and Texas, courts of last resort

have determined that a juvenile offender's aggregate term-of-years sentence was not
subject to Eighth Amendment review under Graham and M. iller.

1. State v. Kasic, 265 P. 3d 410 (Ariz.Ct. App. 201l)(Juvenile offender's
enhanced and consecutive prison terms totaling 139. 75 years for
nonhomicide offenses was not unconstitutionally excessive; proper 8th
Amendnient analysis focused on the sentence imposed for each crime and

not the aggregate sentence. );
2. Hobbs v. Turner, 431 S. W. 3d 283 (Ark. 2014)(Juvenile sentenced to 40
years for kidnapping and additional crimes totaling 55 years was not "life
without parole. ");
12

3. Lucero v. People, 2017 CO 49, 394 P. 3d 1128 (2017), cert. denied, 138 S. Ct.
641 (2018) (Juvenile was sentenced to an aggregate 84-year term for
nonhomicide crimes. The court reasoned that life without parole is distinct
froni a sentence to a term of years; Graham and M. iller do not expressly

apply to an aggregate term-of-years sentence. );
4. VeaJ v. State, 303 Ga. 18, 810 S.E. 2d 127, cert. denied, 139 S. Ct. 320
(2018)(Juvenile ultimately received a sentence of 8 consecutive life terms
plus 60 years for murder and other nonhomicide crimes; court concluded
that there was no requirement to consider Miller mitigation since the

sentence was not actually life without parole. );
5. State v. Redmon, 380 P. 3d 718 (Kan. Ct,App. 2016) (Juvenile was convicted
of rape and other nonhomicide crimes and received consecutive sentences
totaling 61 years; court refused to extend Miller absent express direction

from Supreme Court. );
6. State v. AJi, 895 N. W. 2d 246 (Minn. 2017), cert. denied, 138 S. Ct. 640
(2018)(Juvenile was sentenced to 3 consecutive life terms for 3 murders.

Each life sentence allowed for possibility of release after 30 years; analysis
of each sentence individually did not violate 8th Amendment. Court
concluded that A&T/erand J\fontgomery Sio not apply to an aggregate term. );
7

Mason

v.

State,

235 So. 3d 129

(Miss. Ct. App. 2017)(Af777£?ronly applies

to a

life-without-parole sentence and not an aggregate 50-year sentence for

manslaughter and kidnapping.);
8. State v. Nathan, 522 S. W. Sd 881 (Mo. 2017)(Juvenile was sentenced to life
for second degree murder, 30 years for first degree robbery, 15 years for
kidnapping, and three life sentences for related armed criminal action
convictions. The Court held that nothing in M.iller or Graham takes away
the court's statutory right to impose consecutive sentences. );
9

State v. Castaneda, 295 Neb. 547, 889 N.W. 2d 87, cert. denied, 138 S. Ct. 83

(2017)(Juvenile's aggregate sentence of 105 to 125 years imprisonment for
felony murder and other nonhomicide offenses did not violate the 8th
Amendment when looking at each sentence individually. );

1Q. People v. Aponte, 981 N. Y. S. 2d 902 (Sup. Ct. 2013)(Court determined Miller
and Graham applied only to sentences of life without parole; juvenile
13

remained technically" parole eligible in spite ofniandatory minimums that
guaranteed he will never be released. );

11. Sever v. State, 2020 OK OR 13, 467 P. 3d 693 (8th Amendment only requires
examination of the sentence for each crime committed; aggregate 215-year
no-parole sentence for multiple murders did not violate the 8th Amendment
in spite of State's failure to prove irreparable corruption. );
12. Kinkel v. Persson, 417 P. 3d 401 (Or. 2018)(Juvenile offender received a mix
of concurrent and consecutive sentences for multiple crimes, including
murder. The aggregate terms added up to almost 112 years in prison. The

court justified its decision: "To date, the [Supreme] Court has not extended
its Roper, Miller, and Graham holdings to lesser minimum sentences. ");
13. Coinmonwealth v. Foust, 2018 PA Super 39, 180 A. 3d 416 (2 018) (Juvenile
ultimately received consecutive sentences of 30 years to life for two first
degree murder convictions. Although the court acknowledged M. iller's
application to de facto LWOP sentences, it concluded that the 8th
Amendment only required analysis of each individual sentence rather than
the aggregate total. );

14. State v. Slocumb, 827 S. E. 2d 148 (S. C. 2019) (Juvenile's 80-year aggregate
sentence for nonhomicide offenses did not violate 8th Amendment; Graham
and MiUer cases only applied to de jure LWOP sentences and not de facto
LWOP sentences. );
1Q. State v. Merritt, No. M2012-00829-CCA-R3CD, 2013 WL

6505145

(Tenn. Crim. App. 2013)(findmg juvenile's sentence of 225 years (9
consecutive 25-year terms) for rape of a child was the equivalent of a life
sentence, but court found that Graham did not apply to de facto life
sentences. );
16. Cannon y. State, 456 S. W. Sd 594 (Tex. Ct. App. 2015)(Court refused to
expand M.illers application to consecutive sentences of life for murder and
99 years for aggravated robbery when convictions and crimes took place at
different tinies.).

14

B. A judge's decision to inipose consecutive sentences for crimes committed by a
juvenile offender is not exempt from Eighth Amendment protection.
The Oklahoma Court of Criminal Appeals concluded that JVIichael Bever's
punishment does not violate the Eighth Amendment for two reasons. The first was a
policy justification. The Bever majority proclaimed:

"[Djefendants

convicted of

multiple offenses are not entitled to a volume discount on their aggregate sentence."
Sever, Tf27. According to the Sever majority, if the judge imposed concurrent
sentences, JVtichael Bever would effectively go unpunished for five of the six crimes
he committed.

While perhaps understandable

in theory, the majority's policy

argument is more prosecutor's lament than valid judicial rationale. Petitioner only
has one lifetime to offer the State of Oklahoma for his crimes; he will never serve all
six of his consecutive sentences. By dying, he will circumvent punishment for his
crimes just as surely as if he received concurrent sentences. 12

The second justification put forth by the Oklahoma court is simply that the
judge s decision was authorized by statute, and this Court has never specifically held
that the Eighth Amendment applies to consecutive sentencing decisions in juvenile
offender cases. The Oklahoma Court of Criminal Appeals applied the Miller Eighth
Amendment

analysis to Michael Bever's individual sentences, but refused to apply

the same analysis to his aggregate sentence. If the Court of Criminal Appeals had
honestly looked at M.ichael Bever's punishment, it would have reached the

12 Additionally, the Oklahoma Court of Criminal Appeals judges are most certainly aware
that concurrent sentences are cominon when a defendant accepts a plea-bargain
recommendation.
exception.

In Oklahoma,

concurrent
15

sentences are the norm

rather than the

inescapable conclusion that his sentence provides no meaningful opportunity for
release. Since this Court has held that a only a juvenile offender proven to be
irreparably corrupt can be sentenced to a term with no possibility of parole, Michael

Bever's sentence violates the Eighth Amendment to the United States Constitution.
Although 22 0.S. 2011, § 976 entrusts a sentencingjudge in Oklahoina with the
statutory authority to iinpose consecutive sentences, this statutory authority must
yield to the mandate of the Eighth Amendment. This Court has iniposed a legal
responsibility upon lower courts when juveniles are tried as adults. While it may be
constitutionally permissible to sentence a juvenile as an adult, the Eighth
Amendinent to the United States Constitution deniands that juveniles be treated
differently than adults. "Because juveniles have diminished culpability and greater

prospects for reform "they are [categorically] less deserving of the most severe
punishments. " Miller, 567 U. S. at 471. The Oklahoma Court of Criminal Appeals has
- on its own - carved out an exception to Miller when a juvenile offender has been
convicted of multiple counts.

Correctly applied, the emphasis of Miller's analysis must be on the juvenile
offenders culpability rather than just the seriousness of his or her crime. 13 The court
instructed ]VIichael Bever's jury that it was to determine whether the State had
proven him to be irreparably corrupt; there is no offense so heinous that the

commission of the offense alone renders a child beyond redemption or rehabilitation.
In the decision on direct appeal, the Oklahoma Court of Criminal Appeals was far too

i3 Montgomery, 136 S. Ct. at 726, 734; Miller, 567 U. S. at 479; Graham, 560 U. S. at 73; Roper,

543 U. S. at 573.

16

preoccupied with the crimes that MEichael Bever committed, finding that a juvenile

"who murders

five people (and plans to murder

many

more) is simply and

fundamentally different than a defendant who murders one person." Sever, ^35. The
Oklahoma court feigned compliance with ]Miller by emphasizing Michael Bever's
eligibilityfor parole in each of his six sentences, while at the same time ignoring that
the punishment imposed will never provide any meaningful opportunity for his
release from prison.14
The language of the Eighth Amendment does not refer to cruel and unusual
sentences; the United States Constitution prohibits cruel and unusual punishments.
Michael Bever's punishment is that he will die in prison, regardless of any steps taken
during his life to redeem himself. The sentencing judge's decision rendered the jury's
findings meaningless.15 If the Eighth Aniendment does not apply to consecutive
sentencing decisions, the judge could have completely ignored Miller and imposed
consecutive life-with-parole terms immediately after the jury returned its guilty
verdicts. No amount of mitigation could have resulted in a shorter sentence than life

for each individual murder count (life with the possibility of parole is the ininimum
under Oklahoma law), and ifthe judge can do as she pleases, there was really no need

14 One need look no farther than the 5e^eropinion on direct appeal to appreciate the chasm
separating the opposing views on this issue. Sever vf as a narrowly decided 3-2 decision with
both the majority and the dissent referring to the conclusions of the other as "ridiculous."

Judge Hudson, specially concurring ^1', Judge Kuehn concurring in part and dissenting in
part Tf4.

15 The sentencing judge's decision to impose consecutive terms in this case, knowing full weU
that the six terms would never be served, was mostly symbolic. The only practical effect of
the judge's decision was to nullify the jury s finding that the State had failed to prove IVIichael

Bever to be irreparably corrupt and forever deny him any chance of release.
17

to seek the jury's opinion. If this Court requires a meaningful opportunity for Michael
Bever's release from prison based upon the jury verdict, a 215-year no-parole sentence
violates the Eighth Amendnient. The Oklahoma Court of Criminal Appeals
disingenuously avoids answering the question as to whether Petitioner's punishment
violates the Eighth Amendment by simply concluding that his individual sentences
do not.

This Court is urged to resolve the ongoing confusion that exists with regard to
the Eighth Amendment's application to juvenile life-without-parole sentences. The
Eighth Amendment imposes restrictions on juvenile offender sentencing that state
courts are unaccustomed dealing with in adult noncapital cases. Adult Eighth
Amendment jurisprudence is comparatively settled, while the Eighth Amendment's
application to juvenile offenders is not. Over the last fifteen years this Court has
moved from a categorical prohibition against executing juvenile offenders to an
absolute prohibition against imposing life-without-parole sentences for nonhomicide
crimes committed by juveniles. Even when a juvenile offender has been convicted of

murder, this Court now requires the sentencer to take into account a juvenile
offender's "age and its hallniark features - among them, immaturity, impetuosity,

and failure to appreciate risks" before a juvenile offender can be sentenced to life
without parole. Miller, 567 U. S at 475. No similar requirements exist in an adult
noncapital prosecution. For adults, the Eighth Amendment forbids only those
sentences that are grossly disproportionate to the crime or crimes for which they are

imposed. See Ewing v. California, 538 U. S. 11 (2003). The application of the Eighth

18

Amendment in juvenile offender sentencing focuses on the differences between
juveniles and adults; the emphasis is on culpability rather than just proportionality.
The confusion that exists among state courts is understandable. Historically,
this Court's Eighth Amendment jurisprudence could easily leave one with the
impression that the amendment has virtually no practical application outside of
capital sentencing. Very few noncapital adult sentences have been held to violate the
Eighth Amendment.

See Solem v. Helm, 463 U. S. 277 (l983)(holding a life-without-

parole sentence for uttering a "no account" check violated the Eighth Amendment);

Robinson v. State, 370 U. S. 660 (l962)(Eighth Amendment violated by a statute that
punished a drug addict for the "status" of his addiction). For obvious reasons, capital
decisions from this Court provide limited assistance to lower courts when it comes to
consecutive sentences and the Eighth Amendment. The Bever opinion — and others
like it - make it clear that additional guidance is necessary for lower courts to apply
this comparatively new Eighth Amendment jurisprudence to juvenile punishment. It
has been nearly five years since this Court decided M^ontgomery v. Louisiana, 136

S. Ct. 718, 193 L. Ed. 2d 599 (2016), and juvenile offenders continue to regularly
request certiorari sentencing review in the Supreme Court precisely because there is
a need for clarity.
While not directly answering the question presented in this case, capital
jurisprudence can provide some guidance as to why juvenile "throw away the key"
sentences must be limited to only those juvenile offenders who demonstrate no hope
of redemption or prospects for rehabilitation. Recognizing the parallels between

19

capital punishinent and juvenile life without parole, this Court has noted that
children are different" just as "death is different" in capital cases.16 In Graham, the

Supreme Court based its analysis on Atkins v. Virginia, 536 U. S. 304 (2002), Kennedy
v. Louisiana, 554 U. S. 407 (2008), and J?oper v. Simmons, 543 U. S. 551 (2005), each
of which evaluated the culpability of the offender in the capital context. "[L]ife
without parole sentences share some characteristics with death sentences that are
shared by no other sentences. "

Graham

v. Florida, 560 U. S. 48, 69 (2010).

Imprisoning an offender until he dies alters the remainder of his life 'by a forfeiture

that is irrevocable. '" Miller v. Alabama, 567 U. S. 460, 474-475 (2012), quoting
Graham, 560 U. S. at 69. A life-without-parole sentence is not only a much longer
sentence for a juvenile offender, but it also "means denial of hope; it means that good
behavior and character improvement are immaterial; it means that whatever the
future might hold in store for the mind and spirit of the convict, he will remain in
prison for the rest of his days. " Graham, 560 U. S. at 70.

The Oklahoma Court of Criminal Appeals held that the sentencing judge in
JVIichael Bever's case had unbridled discretion to impose consecutive sentences
irrespective of the jury's finding that he was to receive some meaningful consideration
for release.17 Sever, ^39. This sort of standardless sentencing discretion contributed
to the Eighth Amendment violation identified in Furman v. Georgia, 408 U. S. 238
(1972). Before a system of capital punishment could pass constitutional muster,

is Miller, 567 U. S. at 480.

17 The Oklahoma Court of Criminal Appeals found the decision to impose consecutive
sentences was neither an unreasonable nor an arbitrary action taken without proper
consideration of the facts and law pertaining to the matter at issue. Bever, ^39.
20

states were required to apply the law in a manner that channeled the sentencer's
discretion by clear and objective standards" that provided "specific and detailed
guidance" and that "make rationally reviewable the process for imposing a sentence
of death. "

See Godfrey v. Georgia, 446 U. S. 420, 428 (1980). This channeling is

accomplished by requiring juries to make a finding of at least one aggravating

circumstance (or its equivalent) before a sentence of death can be imposed. If the
State cannot prove the existence of any aggravating circumstances to a jury, a judge
may not impose a sentence of death. See Tuilaepa v. California, 512 U. S. 967, 971-72
(1994).
Given the Oklahoma Court of Criminal Appeals decision in Stevens v. State,
2018 OK CR 11, 422 P. 3d 74, its refusal to acknowledge the parallels between juvenile
life-without-parole sentencing and capital sentencing in IVIichael Bever's case is
disappointing. Stevens outlined a detailed procedure for prosecutors to follow when
seeking a life-without-parole sentence in a juvenile homicide prosecution. For
example, an Oklahoma prosecutor niust specifically and "in bold type" place the
juvenile offender on notice by including prescribed language in the charging
document. Stevens, 1133. The prosecutor must allege that the juvenile offender is
"irreparably corrupt and permanently incorrigible" and that the State intends to seek
a life-without-parole sentence. Stevens, TJ33. It is the State s burden to establish this
by proof beyond a reasonable doubt to a jury and the jury s finding must be
unanimous. Stevens, ^35. In the body of the <S'tere/25'decision, the Court of Criminal
Appeals even provided prosecutors with examples of the evidence it expected them to

21

present, and the court discussed the mitigating circumstances that the juvenile
offender is entitled to present. The framework is already in place; this Court need
only address whether a judge's decision to impose consecutive sentences is subject to
Eighth Amendment review

Once a jury makes a specific finding that the State has not proven permanent
incorrigibility in a juvenile homicide trial, a judge must not be free to ignore the
finding and impose a sentence which forever denies a juvenile any possibility of
release. Respecting a finding of parole eligibility is the only way that the niaximum
penalty can be restricted to a constitutionally eligible group of juvenile offenders. To
hold otherwise underinines the limitations imposed by this Court on life-withoutparole sentences for juvenile offenders. Absent a finding of irreparable corruption,
there remains "a grave risk" that corrigible juveniles will be sentenced to spend the
rest of their lives in prison "in violation of the Constitution." M'ontgomery, 136 S. Ct.
at 736.

In spite of this Court's decisions in Afi'7/erand M.ontgomery, there remain two
well-defined but wildly divergent opinions among state courts in this country
regarding the Eighth Amendment's application to consecutive sentencing decisions.
Michael Bever's jury found evidence of irreparable corruption lacking, yet he is still
serving a 215-year no-parole sentence based upon a judge's decision to impose his
sentences consecutively. All Petitioner seeks is confirmation that a judge's decision
to inipose consecutive sentences is not immune from Eighth Amendment protection.

22

C. The sentencing judge was bound under the Sixth Amendment18 by the jury's
finding that the State had failed to prove Petitioner to be irreparably corrupt.

The Oklahoma Court of Criminal Appeals held in Stevens v. State, 2018 OK

CR 11, 422 P. 3d 741 that "[t]he Sixth Amendment demands that the trial necessary
to impose life without parole on a juvenile homicide offender must be a trial by jury,
unless a jury is affirmatively waived. " Stevens, ^34. Just as with the Eighth
Amendment, there are Sixth Amendment parallels between capital punishment and
juvenile offender life-without-parole sentences. When the Stevens court confirmed a
juvenile offender's right to have a jury decide whether to impose a life-without-parole
sentence, the court cited a capital case: Ring v. Arizona, 536 U. S. 584 (2002)
In Ring, the Supreme Court held that Arizona's capital sentencing scheine
violated the Sixth and Fourteenth Amendments because it was up to a judge - rather
than a jury - to determine whether aggravators supported a death sentence. Absent
such a finding, the maximum

punishment would have been life imprisonment.

Relying on Apprendi v. New Jersey, 530 U. S. 466 (2000), this Court concluded that if
a State makes an increase in a defendant's authorized punishment contingent on the
finding of fact (other than a prior conviction), that fact - no matter how the State
labels it - must be found by a jury beyond a reasonable doubt.

18 The Sixth Amendment right to jury trial applies to the states through the Fourteenth
Amendment. Duncan v. Louisiana, 391 U. S. 145 (1968)
23

Petitioner argued to the Oklahoma Court of Criminal Appeals that the judge's
decision to impose consecutive terms effectively denied Michael Bever his right to
have the jury decide whether he should ever be considered for release. In this way,
the finding of irreparable corruption is constitutionally indistinguishable from the

finding of an aggravating circumstance in a capital case. The Oklahoma Court of
Criminal Appeals conceded that it is the State's burden to establish to a jury that a
juvenile offender is irreparably corrupt before imposing a sentence of life without
possibility of parole, but the court refused to determine whether the finding of
irreparable corruption is akin to the finding of an aggravating circumstance. Sever,
Tf23. The court (A"(/conclude "that Apprendi does not apply to a trial court's decision
to run sentences consecutively, even if the court must make findings of fact beyond
those made by the jury before imposing consecutive sentences." Sever, ^25. Petitioner
is asking this Court to clarify the parallels between the finding of an aggravator in a
capital case and the finding of irrevocable corruption in a juvenile offender case. Just

as a judge is prohibited from imposing a sentence of death after a jury has found no
aggravators, a judge cannot impose the maximum permissible sentence upon a
juvenile offender who has not been found irrevocably corrupt.
The Oklahoma Court of Criminal Appeals relied upon Oregon v. Ice, 555 U. S.

160, 168 (2009) as authority for its conclusion that the sentencing judge's decision to
impose consecutive terms in Michael Bever's case did not implicate the Sixth
Amendment. Bever, ^25. In Oregon v. Ice, the controlling statute established a
presumption of concurrent sentencing. Before imposing consecutive sentences, the

24

statute required a judge to make certain factual findings. The majority held that the
Apprendj iTVile does

not

require

a

jury

to make

statutorily required findings before a

court runs an adult offender's sentences consecutively.
The Oregon v. Ice decision did not address juvenile life-without-parole
sentencing and was a narrowly decided 5-4 opinion. The Oregon sentencing scheme
was different than Oklahoina's insofar as an Oklahoma judge has the statutory
authority to impose consecutive sentences without articulating any reason for her
decision.19 The issue of judicial factfinding is not an issue in this case. There was
obviously no mention in Oregon v. 7ce of the judge's decision thwarting a jury's verdict
regarding parole eligibility. Michael Bever's case presents a conflict between a
juvenile offender's right to a finding of irrevocable corruption before a no-parole life
term can be iinposed and a judge's right to impose consecutive sentences that result
in a no-parole life term. If a judge has the absolute discretion to impose consecutive
terms irrespective of the consequences of that sentence, the A&T/er limitations on lifewithout-parole sentences will fail to accomplish this Court's goal of limiting life
without parole to those rare and uncommon

children who show irretrievable

depravity, permanent incorrigibility, or irreparable corruption.

The dissenting justices in Oregon v. Ice pointed out that the Oregon
sentencing scheme allows judges rather than juries to find the facts necessary to
commit defendants to longer prison sentences, and thus directly contradicts what we

19 22 0. S. 2011, § 976 grants absolute discretion to Oklahoma judges to impose consecutive or
concurrent sentences.

25

held eight years ago and have reaffirmed several tinies since." Oregon v. Ice, 555 U. S.
at 173. Justice Scalia's words ring true:

,.. [T]he Court attempts to distinguish Oregon's sentencing
scheme

by reasoning that the rule of Apprendi aLpplies only
to the length of a sentence for an individual crime and not
to the total sentence for a defendant. I cannot understand

why we would make such a strange exception to the
treasured right of trial by jury. Neither the reasoning of the
Apprendi line of cases, nor any distinctive history of the
factfinding necessary to imposition of consecutive

sentences, nor (of course) logic supports such an odd rule.
Oregon v. Ice, 555 U. S. at 173. 20
Only this Court can resolve the conflict between a sentencing judge's
authority to impose consecutive sentences and the right to the protections guaranteed

to juvenile offenders by Miller.
CONCLUSION
Eventually, this Court must directly confront an iniportant question: How is a
judge or jury to deterniine — at the time of sentencing - whether a juvenile offender
will still be "incorrigible" or "corrupt" decades into the future? Miller recognizes the
difficulty attendant to predicting how a child will behave as an adult by setting a high
bar that theoretically should limit the number of juvenile offenders serving lifewithout-parole to a very small number. In practice, too many juvenile offenders are
still sentenced to die in prison. One way that this is accomplished is through the
imposition of consecutive sentences. In Michael Bever's case, concurrent sentencing

20 Justice Scalia was joined in his dissent by Justices Roberts, Thomas, and Souter.
26

would permit him to go before the Oklahoma Parole Board no sooner than 38 years
and 3 months into his life sentence.21 It will be far easier for a parole board to evaluate
his behavior as an adult and determine whether he should be released at that time.
Future conduct is far easier to evaluate in the future.

For now, Petitioner only asks this Court to address whether any constitutional
protections exist in the decision to impose consecutive or concurrent sentences when

a juvenile offender is tried as an adult. If this Court intended Graham and its progeny
to impose a limiting standard for "throw away the key" sentences when juvenile
offenders are sentenced as adults, this Court's job is not finished. Absent Supreme
Court intervention, juvenile offenders will continue to serve no-parole terms by virtue
of consecutive sentencing decisions, rather than because a finding of irreparable
corruption (or its equivalent) has been made.

Respectfully submitted,

/ / /,'

^

/ /

I

Stuart W. Southerland
Counsel of Record

Tulsa County Public Defender's Office
423 South Boulder Ave. #300

Tulsa, OK 74103
(918) 596-5530
November 2020

21 See 21 O. S. Supp. 2015, § 13. 1. Petitioner's sentences are all subject to an 85% minimum
term prior to becoming eligible for parole. For a life sentence, parole eligibilityis calculated
as 85% of 45 years.
27

Appendix

Appendix 0001
6 3 9

VERIDCT FORM
COUNT 1 - MURDER IN THE FIRST DEGREE

We, the juiy, empaneled and swom in the above-entitled cause, do, upon our
oaths, find the following:

[Check and complete oiily one.]
•

The Defendant

is irreparably con-upt and permanently

incorr^ibleand sentence the Defendant to

Defendant is not irreparably corrupt and permanently
incorrigible and sentence the Defendant to Ufe with the possibUity of parole.

FOREPERSON

Appendix-0002

VERIDCTPORM
COUNT 2 - MURDER IN THE FIRST DEGREE

We, the jury, empaneled and sworn in the above-entitled cause, do, upon our

oaths, find the following:

(Check and complete onty one.]

The Defendant is ureparably corrupt and permanently

incorrigibleand sentence the Defendant to

f

Defendant is not irreparably corrupt and permanently
incorrigible and sentence the Defendant to life with the possibiUty of parole.

POREPERS N

Appendix 0003

VERIDCT FORM
COUNT 3 - MURDER IN THE FIRST DEGREE

We, the jury, empaneled and sworn in the above-entided cause, do, upon our
oaths, find the following:

{Check and complete only one.]

The Defendant is irreparably corrupt and permanently

incorrigibleand sentence the Defendant to

Defendant is not irreparably cormpt and permanently
incorrigible and sentence the Defendant to life with the possibiUty of parole.

FOREPERSO

Appendix 0004

VERIDCT FORM
COUNT 4 - MURDER IN THE FIRST DEGREE

We, the juiy, empaneled and sworn in the above-entitled cause, do, upon our

oaths, fund the following:

[Check and complete only one.]
The

Defendant

is ureparably

corrupt

and

permanently

incorrigible and sentence the Defendant to

Defendant is not irreparably corrupt and permanently
incorrigible and sentence the Defendant to life with the possibility of parole.

FOREPERSO

Appendix 0005

VERIDCT FORM

i

I/

COUNT 5 - MURDER IN THE FIRST DEGREE

We, the jury, empaneled and sworn in the above-entitled cause, do, upon our
oaths, find the following:

[Check and complete only one.]
The

Defendant

is irreparably

corrupt

eind permanently

is not irreparably

corrupt

and

incorrigibleand sentence the Defendant to

^ /

Defendant

permanently

incorrigible and sentence the Defendant to life with the possibility of parole.

AM&^
FOREPERSO

Appendix 0006

VERIDCT FORM
COUNT 6 - ASSAULT 8s BATTERY WITH INTENT TO KILL

We, the juiy, empaneled and sworn m the above-entitled cause, do, upon our

oaths, find as follows:
Michael Bever is:

Guilty of the crime of ASSAULT 8s BATTERY WTTH INTENT TO KILL

and fixpunishment at 0.06 OL

years.

FOREMAN OF THE JURY

Appendix 0007

IN AND FOR THE DISTRICT COURT OF TULSA COUNTY
STATE OF OKLAHOMA

1
2

3

STATE OF OKLAHOMA,

)
)

Plaintiff, )

4

V.

)
)

MICHAEL JOHN BEVER,

)

5

CASE NO. CF-2015-3983
JUDGE HOLMES

Defendant. ^

6
7

(^(T^[B)

8

TRANSCRIPT OF SENTENCING

9

10
11

HELD ON AUGUST 9, 2018
BEFORE THE HONORABLE SHARON K. HOLMES

12

DISTRICT JUDGE

13

D^c

14

15

^^?

16

APPEARANCES

17

18

19
20
21

22
23
24
25

2018

For the State of Oklahoma:
Mr. Stephen Kunzweiler, District Attorney
MS. 3u1ie DOSS, Assistant District Attorney
500 south Denver
Tulsa, Oklahoma 74103
For the Defendant:
Mr. Corbin Brewster, Public Defender
MS. Marny Hill, Assistant Public Defender
423 south Boulder Avenue, Suite 300
Tulsa. Oklahoma 74103
Also present:
Reported by:

Detective Rhianna Russell
Dee Dee Tanner, CSR

DISTRICT COURT OF OKLAHOMA

-

OFFICIAL TRANSCRIPT

Appendix 0008

I

PROCEEDINGS

2

THE COURT:

WC'FC OR the record In case Number

3

CF-2015-3983,

4

All parties are present.

5

matter is set for sentencing.

6

State of Oklahoma versus Michael John Bever.

Mr. sever is present.

This

The last time we were here, I believe I had stated

7

that I would be writing somewhat of an opinion.

8

somewhat changed my course.

9

statement pretty much.

I'm going to be giving a

I'm not . going to go into detail

10

about what I researched or what I've considered.

11

basically just going to give my decision today,

12

written just for purposes of brevity.

13

I've

I'm
it is

The first thing I need to make Mr. sever aware of

14

is that you are advised,

15

the crimes of murder in the first degree — five

16

that — and

17

to kill.

18

first five counts and 28 years on the — on

19

count of assault and battery with intent to kill.

20

sir, that you stand convicted of
counts of

one count of assault and battery with intent

The jurors recommended terms of life on the
count 6, the

YOU have the right to file a motion for a new trial

21

setting forth the reasons why you believe you should be

22

granted a new trial, so I need to make you aware of that

23

first.

24
25

At this point I'll give my decision,

and after that

I will give you your notice of your rights to appeal.
DISTRICT COURT OF OKLAHOMA

-

OFFICIAL TRANSCRIPT

For

Appendix 0009

1

the record,

2

the court of criminal

3

authorities that the court studied in helping me reach a

4

decision.

5

an exhibit as court's

Appeals,

2 for

just to give them a 11 st of

This matter came on before this court on the 24th

6

day of July, 2018, for sentencing.

7

conducted from April 16th, 2018 through May llth, 2018.

8

The defendant was charged with and convicted of five

9

counts Of murder

After a jury trial

in the first degree and one count of

10

assault and battery with intent to kill.

11

scheduled sentencing hearing, the Court received

12

sentencing Miranda from both the State of Oklahoma.

13

represented by District Attorney Stephen Kunzweiler, and

14

the defense represented by chief publi'c Defender corbin

15

Brewster and Assistant Public Defender Marny Hill.

16

Court was also provided with a victim's

17

from the adoptive mother of the two surviving children of

18

the sever family.

19

from the respective parties in support of their memoranda.

20

^

I've also marked

Additionally,

Prior to the

Impact

The

Statement

the Court heard argument

Further, several days prior to the sentencing date,

21

the court also received a letter from six of the jurors

22

who deliberated over the case.

23

court's Exhibit Number 1.

24

until August 9th, 2018, because this case presents

25

which in this Court's opinion are novel under the laws of

That letter is marked as

This Court postponed sentencing

DISTRICT COURT OF OKLAHOMA

-

issues

OFFICIAL TRANSCRIPT

Appendix 0010
4

1

this State and perhaps throughout

2

of the extraordinary legal and factual issues involved in

3

this case are unprecedented.

4

the whole country.

Before I announce my decision,

Some

there are a few

5

things I'd like to address on the record:

First, the

6

jurors in this case diligently and painstakingly carried

7

out their responsibilities, and the court very much

8

appreciates their efforts.

9

how emotionally draining the trial of this matter was.

Also, this court recognizes

10

a daily basis the whole courtroom was filled with people

11

who cried.

12

extraordinary nature of this case.

13

involved

14

factually and a legal standpoint.

15

evolved literally as the jury instructions were being

16

prepared in this case.

17

And finally,

this court must

On

reemphasi'ze the

There were issues

in this case that had never arisen in this state

Ultimately,

18

address

19

concurrently

New legal guidelines

the only decision that this Court must

1s whether to run the sentences in this cases
or

consecutively.

@SBBa^te3fe2_'ltg,, 3|^3

20 £ Ml!tii®stAffi"-OTarj^_^§2G^^tt^g^y in preparing to come to a
21

decision, this court had to look at the totality of the

22

circumstances in order to decide how the defendant should

23

be sentenced.

24

pertinent information in reaching its decision and

25

determines that Michael Bever should be sentenced as

This Court extensively analyzed all

DISTRICT COURT OF OKLAHOMA

-

OFFICIAL TRANSCRIPT

Appendix 0011
1

follows:

2

On counts —

Let me just go through and reiterate what the

3

sentences were that were recommended

4

was life with the possibility of parole.

5

saibe.

6

5 was the same.

7

6, assault and battery with intent to kill, the jury

8

recommended 28 years.

9

decision to run these counts consecutively.

count 3 was the same.

by the Jury.

Count 2 was the

Count 4 was the same.

Count

And with regard to the count of — Count

At this time the Court has made the
There will be

10

no fines or costs assessed.

11

ahead and advise Mr. Bever of Ms right to appeal.

12

count 1

And with that, let me go

Sir, you have the right to appeal your conviction

13

to the Oklahoma

14

the right to be represented

15

appeal at public expense.

You're further advised

16

Notice of intent to Appeal

to the Oklahoma

17

criminal Appeals and a request for your case to be made

18

should be in writing within the next ten days after

19

today's

20

court.

21
22

Court of Criminal

date and should

At this time,

And you have

by Court-appointed

counsel

that the

Court of

have any idea

whether you -intend to appeal or not?
MR. BREWSTER:

24

THE COURT:

on

be filed with the clerk of this

do you, Mr. srewster.

23

25

Appeals.

YCS, YOUr Honor, we win.

All right.

And so if you can — I

don't know if you can get that paperwork to me today
DISTRICT COURT OF OKLAHOMA

-

OFFECIAL TRANSCRIPT

Appendix 0012
1

because I leave for vacation today,

2

I'11 be around.

3
4

But I'11 need to sign off on thai.

MR. BREWSTER:
do it today,

5

if not, let me know.

Okay.

I'm not sure that we can

but I will do my best,

THE COURT:

Judge.

3USt let my clerk or my bailiff

6

know, and I'll make sure it gets signed off on in a timely

7

manner.

MR. BREWSTER:

8

9
10

assume that our office will continue to represent
Mr. Bever?

11
12

THE COURT:
paperwork,

Yeah, once you give me the

I'll assign who needs to be assigned on there.

13

MR. BREWSTER:

14

THE COURT:

15

Okay.

is there anything else for the

record?

16

MR. KUNZWEILER:

17

MR. BREWSTER:

18

And as for the formality. I

Not from the State.
Not at this time from the

defense.

19

THE COURT:

20

All

right,

we'll be in recess.

(Pause in the proceedings.)

21

THE COURT:

I neglected

to put something

on the

22

record.

23

briefly.

24

these offenses are 85 percent crimes.

25

Mr. sever was aware of that, but I needed to make a record

Let me do that.

we're back on the record

The Court needed to mention also that all of

DISTRICT

COURT OF OKLAHOMA

-

And I think

OFFICIAL TRANSCRIPT

Appendix 0013

1

of that.
MR. BREWSTER:

2

Judge, one thing while we're on

3

the record, I just want to make sure that Mr. sever

4

remains at the Tulsa county jail for us to be able to

5

consult with him during this ten-day time period.
THE COURT:

6
7

okay.

That will be the Court's

order.

8

MR. BREWSTER:

9

THE COURT:

10

Thank you.

We'll be Off the record.

(End of proceedings.)

11
12

13
14
15
16
17

18
19
20
21

22
23
24
25
DISTRICT

COURT OF OKLAHOMA

-

OFFICIAL TRANSCRIPT

Appendix 0014
8

CE

1

RTIFICATE

2

3

STATE OF OKLAHOMA

)

4
5

)

COUNTY OF TULSA

ss.

)

6
7

I, Dee Dee Tanner, a Certified Shorthand

8

Reporter in and for the State of Oklahoma, do hereby

9

certify that the foregoing transcript in the above-styled

10

case is a true, correct and complete transcript of my

11

shorthand notes of the proceedings in said cause.

12

Dated this 2^—day nfY]aue^f^_ , ^U)(S.

13
14
15
16

Dee Dee Tanner, CSR, NO. 01590

'^

17
18

Sharon D. Tanne**

19

Srare of Oklahoma

Cerdii,*d Shorthand Reporter

20

CSR# 1590

My Certificate Expires »2 ^S -

21
22
23
24
25
DISTRICT

COURT OF OKLAHOMA

-

OFFICIAL TRANSCRIPT

A'ppfendix0015

IN THE DISTRICT COURT IN AND FOR TULSA COUNTY, OKLAHOMA

-nioAUPlO PM 12^30
t ii ••,. "r'.'

o^'"'"

State Of Oklahoma,
vs-

BEVER, MICHAEL JOHN

r:

Case No; CF-2015-3983

SS.#:XXX-XX-3011

s: xx.xx.l998

ORIGI L

AU8 I 0 2018
JUDGMENT AND SENTENCE

DON NEWBERRY. Coun Clerk

All Time In Custody

Now, this 9™ day of AUGUST, 2018, this matter comes on before jthe Court for
sentencing and the defendant appears personally and by his or her Attorney of

record, CORBIN BREWSTER AND MARNY fflLL, and the State of Oklahoma is
represented by STEVE KUNZWEILER AND JULIE DOSS, and the Court
Reporter, DEE TANNER is present.

The defendant was found guilty by a jury of the crime(s) of :
Count
Count
Count
Count
Count

1: MURDER• FIRST DEGREE, in violation of 21 O. S. 701.7 Date Of Offense: 07/22/2015
2: MURDER - FIRST DEGREE, in violation of 0 S. 701.7 Date Of Offense:;07/22/2015
3: MURDER - FIRST DEGREE. in violation of 21 O.S. 701.7 Date Of Offense.'07/22/2015
4: MURDER - FIRST DEGREE , in vtolafion of 21 O. S. 701.7 Date Of Offense:i07/22/2015
5: MURDER - FIRST DEGREE , in violaUon of 21 0.8. 701.7 Date Of Offense:i07/22^015

Count 6: ASSAULT & BATTERY WITH INTENT TO KILL. inViolatfon of21 O. S. 6S2CiDate Of Offense:
07/22/2015

-

IT IS THEREFORE ORDERED, ADJUDGED, AND DECREED by the Court that

the defendant, is guilty of the above described of offenses and is sentenced as
follows:

TERM OF IMPRISONMENT

Count 1: LIFE all under the custody and conta-ol of the DEPARTMENT OF
CORRECTIONS.
Count 2: LIFE all under the custody and control of the DEPARTMENT OF
CORRECTIONS.
Count 3: LIFE all under the custody and control of the DEPARTMENT OF
CORRECTIONS.

Ap^ndi^<0016

Count 4: LIFE all under the custody and control of the DEPARTMENT OF
CORRECTIONS.
Count 5: LIFE all under the custody and control of the DEPABTMENT OF
CORRECTIONS.

Count 6: TWENTy-EIGHT (28) YEARS all under the custody and control of the

DEPARTMENT OF CORRECTIONS.

;

ALL COUNTS TO RUN CONSECUTIVELY.

IT IS FURTHER ORDERED, ADJUDGED AND DECREED BY THE COURT

that in addition to the preceding terms, and the general miscellaneous costs of this

action, the defendant is also sentenced to:
Count 1: COSTS ONLY.
Count 2: COSTS ONLY.
Count 3: COSTS ONLY.
Count 4: COSTS ONLY.
Count 5: COSTS ONLY.
Count 6: COSTS ONLY.

Although additional costs may accrue after the issuance ofthis order, currently, the
total cost assessed against the defendant in this case (all counts) is $ 3,629. 36.

IT IS FURTHER ORDERED BY THIS COURT THAT JUDGMENT IS HEREBY
ENTERED against the defendant for all costs, fees, fines, and assessments ordered

in this action and he or she is ordered to report immediately upon conclusion ofthis

sentencinghearing,or^withinten(10) days ofdischarge, ifthe'defendant iscurrently

incarcerated, to the Tulsa County Court Clerk to pay all costs, fines, fees, and
assessments ordered in this action - or - to the Tulsa County Court Cost

Administrator to make arrangements to pay the costs, fines, fees, and assessments as

ordered pursuant to the Rule 8 Hearing held this day.

The Court further advised the defendant of his or her right to appeal to the Court of

Criminal Appeals of the State of Oklahoma and of the necessary steps to be taken
by him or her to perfect such appeal, and that ifhe or she desired to appeal and was

unable to afford counsel and a transcript of the proceedings, that the same would be
famished by the State, subject to reimbursement in accordance wilh 22 S 0 S.
1355. 14, 20 § 0. S. 106. 4 (b), and, ADC-72-33.

?1 thf.evT^ Af ib?ve sentenceisforincarcerationinthe Department ofCorrections,

the Sheriff of Tulsa County, Oklahoma, is ordered and directed to deliver the

Appendix 0017

defendant to the Lexington Assessment and Reception Center iat Lexington,

Oklahoma, and leave therewith a copy of this Judgment and Senterice to serve as
warrant and authority for the imprisonment of the defendant as provided herein. A
second copy of this Judgment and Sentence to be warrant and authority of the Sheriff

for the transportation and imprisonment ofthe defendant as herein before provided.
The Sheriff is to make due return to the clerk of this Court with his proceedings

endorsed thereon.

COURT CLERK'S DUTY
[TRIAL JUDGE TO COMPLETE THIS SECTION]

IT IS FURTHER ORDERED that the Clerk of this Court shall register or
report the following circumstances in accordance with the applicable

statutory authority:

(/C) As to Count(s) \-0» . the defendant is ineligible to register to vote
pursuant to Section 4-101 of Title 26.

( ) Pursuant to Section 985. 1 of Title 22. the Court departed from the

mandatory minimum sentence of imprisonment as to Count(s) '•

^)AstoCount(s) _„ ,

the

defendant

is subject

to the

Methamphetamine Offender Registry requirements as set fo'rtlt in Section

2-701 of Title 63.

( ) Defendant is a lawyer and certified copies of this document shall be
transmitted to the Chief Justice of the Supreme Court and the General
Counsel of the Bar Association within five (5) days as set forth in Rule 7. 2 of

the Oklahoma Rules of Professional Conduct, 5 O. S. Supp.2014, ch. 1, app.
1-A.

Witness my hand the day and year first above mentioned.
Witness my hand this 7"<- DAY OF AUGUST, 2018,

JUDGE SHARON K. HOX. MES

Appfendix0018

ATTESTATION:

DONNEWBERRY
District Court C erk Tulsa County
By:

BROWN
OFFICER'S RETURN OF SERVICE

Received this order the _

day of

_ __, and executed it by delivering said defendant to the

Warden of the Lexington Assessment and Reception Center at Lexington, Oklahoma on the _

day of

VIC REGALADO, SHERIFF, TULSA COUNTY, OKLAHOMA

By:
Deputy

COURT CLERK'S CERTIFICATION

1,Don Newberry,DistrictCourt Clerk forTulsa. Oklahoma, herebycertifythatthe foregoingisa true,correctand fall
copy of the instrument heiewith set out as appears on record in the Coun Clerks Office of;Tulsa, OkJahoma.

Dated this the _

day of

DON NEWBERRY, DISTRICT COURT CLERK, TULSA COUNTy, OKLAHOMA

By:

Deputy

Appendix 0019

Sever v. State. 467 P.3d 693 (2020)
2020 OK CR 13

467P.3d693
Court of Criminal Appeals of Oklahoma.

Michael John SEVER, Appellant
V.

Lewis, PJ., filed opinion concumng in pan and dissenting in
part, in which Kuehn, V.P.J.,joined.
Kuehn, V.P.J., filed opinion concurring in pan and dissenting
in part, in which Lewis, P.J.,joined.

STATE ofOUahoma, Appellee.
Case No. F-zoiS-Syo
I
NLED JUNE 25, 2020

West Headnotes (35)
111

Jury y Assessment of punishment
The Sbtth Amendment requires that the trial
necessaiy to impose life without parole on a
juvenile homicide offender must be a trial by
jiuy, unless ajuiy is aflRrmatively waived. U. S.

Synopsis
Background! Defendant, who was 16 years old at time of
offenses, was convicted following trial in the District Court,
Tulsa County, No. CF-2015-3983, Sharon Holmes, J., of five
counts of first degree murder and one count of assault and

ConsL Amend. 6.

batteiy with intent to kill, and received consecuUve sentences

of life in prison for each count of murder and 28 years in
prison for assault and batteiy count Defendant appealed.

[2]

Homicide \-

Murder

Infants v» Sentencingof Minors as Adults
Jury v^ Particular cases in general
Holdings: The Court of Criminal Appeals, Lumpkin, J., held

Sentencing and Punishment '':=- Juvenile

that:

offenders
Trial court's order for each life sentence

[I] imposftion of consecutive life sentences did not violate
defendant's right to jury sentencing;

imposed upon defendant, who was a juvenile
at time he committed the five murders, to be

[5] neuropsychologist'sprofferedtestimony about defendant's
cognitive limitations was irrelevant to defendant's guilt;

served consecutively did not violate defendant's
Sixth Amendment right to jiuy sentencing
or Eighth Amendment limitations on juvenile
sentencing, even though jury found defendant
was not irreparably coirupt or pennanently
incorrigible; issue of whether sentences were
to run consecutively or concurrently was a
discretionaiy decision for judge, not for jury,
and analysis for whether sentences imposed on
juvenile oflfenders constituted cruel and unusual
punishment focused on each separate sentence

[6] photographs ofcrime scenewere not needlessly repetitive;

U.S. Const. Amends. 6, 8; 22 Okla. Stat. Ann. §§

and

926. 1, 976.

[2] imposition of consecutive life sentences did not constitute
excessivepunishment;
[3] prosecution's failure to preserve evidence did not
constitute prosecutorial misconduct;
[4] any prosecutorial misconduct did not require reversal;

rather than cumulative effect of all sentences.

[7] defendant was not entided to present defense of duress.
[3]

Courts -,;- Decisions of United States Courts
as Authority in State Courts

Affinned.

The Court of Criminal Appeals (ully recognizes

Hudson, J., filed specially concurring opinion.

V<£:STI>. -\W

and faithfully discharges its independent duty

-y 2020 Thoiriburi Re^tyiS. No ciai.'n re criQi.'ial U. S. Goveinidbiil Wo'ky.

Appendix 0020

Bever v. State, 467 R3d 693 (2020)
2020 OK CR 13

and authority to interpretdecisions of the United
States Supreme Court.
(9|
|4|

Criminal Law v- Points and authorities

Homicide -i-» Murder

Defendant waived his appellate contention that
state parole system did not provide meaningful
opportunity for release guaranteed to him as
a juvenile offender under the Eighth and

Infants •>" Sentencingof Minors as Adults
Sentencing and Punishment ">> Juvenile
offenders

TOal court's imposhion on defendant of
consecutive sentences of lifis in prison for each
of five counts of first degree murder and 28
years for one count of assault and battery, all
committed when defendant was 16 years old,

Fourteenth Amendments, where defendant failed

to set out contention in separate argument

within appellate bnef, instead discussing it
within context of different proposition, namely,
that consecutive sentences for murder did not

did not shock the conscience, and thus sentences

provide defendant with meaningful opportunity

were not excessive, where defendant received
statutory minimum punishment of life in prison
with the possibility of parole as to each count
of murder, defendant helped plan murders of his
family and fully participated in the killings,and
assault and battery victim, who was defendant's

for release. U. S. Const. Amends. 8, 14; Okla. Ct.

Crim. App. R. 3.5(A)(5).

(5]

Assault and Battery v- OfFenses involving
domestic or othw particular relationships

Criminal Law i~ Sentencing
Claims of excessive sentence are typically
reviewed under the principle that the Court of
Criminal Appeals will not disturb a sentence
within statutoiy limits unless, under the facts

sister, feared defendant would be released from

custody and kill her. U. S. Const. Amend. 8; 21
Okla. Stat Ann. § 701.9(A); 22 Okla. Stat. Ann.

§976.

and circumstances of the case, it shocks the
conscience of the Court. U. S. Const. Amend. 8.

|10]

Criminal Law <.- Arguments and conduct of
counsel

(6]

Sentencing and Punishment w Right to
have sentences run concurrently

The Court of Criminal Appeals evaluates alleged

prosecutorial misconduct within the context of

There is no absolute constitutional or statutory
right to receive concuirent sentences. 22 Okla.
Stat Ann. § 976.

[7|

the entiretrial,consideringnot only the propriety
of the prosecutor's actions, but also the strength
of the evidence against the defendant and the
corresponding arguments of defense counsel.

Sentencing and Punishment .- Discretion of
coun

|11]

Criminal Law i.- Conduct of counsel in

It is within the trial court's discretion whether

general

sentences are run concurrently or consecutively.
22 Okla. Stat. Ann. § 976.

On a claim of prosecutorial misconduct, relief
is only granted where the prosecutor's flagrant
misconduct so infected the defendant's trial that
it was rendered (undamentally unfair.

(8]

Criminal Law i- Discretion of Lower Court
An "abuse of discretion" is any unreasonable or
arbitraiy action taken by a court without proper

consideration of the facts and law pertaining to

112]

Criminal Law ;- Excuse or justificationfor
destruction or loss

the matter at issue.

>/»LrSTL^.W

i)2QW Thomson Reuteis. No claim 1, 0 ongir.al U. S GoyKri'.'rier'l Woii'.s.

Bever v. State, 467 P.3d 693(2020)
2020 OK CR 13

.

Prosecution's failure to preserve evidence,
including journal allegedly kept by defendant's
sister and hard drive from defendant's family
computer, did not constitute prosecutorial

Ap.pendix_0021-

insanity defense was not pursued, psychol<%ist
did not testify at trial, and defense experts' raw
data was

provided

to State's pqf chologisfc

misconduct, where defendant did not claim either

item of lost evidence was actually exculpatory
and nothing indicated prosecution lost evidence

|17]

Criminal Law .-• Summing up

in bad faith.

(13]

Trial court's rulings sustaining defendant's
objections to State's comments during opening
and closing aiguments cured any eiror arising

Criminal Law •. » Discovery and disclosure;
transcripts of prior proceedings
Any prosecutorial misconduct occurring in
prosecution's failure to preserve evidence,
namely, family computer's hard drive and
journal kept by defendant's sister, was harmless,
where

evidence

of defendant's

Criminal Law y- Opening statement

irom such comments.

[18]

Criminal Law -.- Ai^uments and statements
by counsel
Standard

guilt was

of

review

for

trial

court's

rulings overruling defendant's objections to
prosecutorial comments in opening and closing

overwhelming, defendant received minimum
punishment, namely, life in prison with
possibility of parole for each count of first
degree murder, and defendant did not claim lost
evidence was material or exculpatoiy.

statements was abuse of discretion.

[19]

Criminal Law . - Arguments and conduct in

general
|14]

Standard of review for any prosecutorial
misconduct arising from State's comments

Criminal Law <.- Requisitesof fair trial
Attorney disciplinary rules do not establish the
parameters of a defendant's constitutional right

during opening and closing arguments was

plain eiror, where defendant failed to object to

to a fair trial.

|15]

Criminal Law t- Publicity,media covCTage,
and occuirences extraneous to trial

comments.

|20|

Criminal Law i= Necessity of Objections in
General

Any misconduct in prosecutors' comments to the

Under (he plain error test, a reviewing court

media three months before murder trial did not

determines whether a defendant has shown an

deny defendant a fair trial, where jurors were
thoroughly screened for media exposureand predetennined opinions as to defendant's guilt, and

actual eiror which is plain or obvious and which
affects his substantial rights.

defendant did not show jurors who sat on his

case were actually prejudiced by prosecutors'
statements or by media.

|16|

Criminal Law .;- Expert witnesses

Any prosecutorial misconduct in State's alleged
failure to provide notice to defense counsel
before directing psychologist to evaluate
defendant for possibleinsanitydefense to murder
charges did not prejudice defendant, where

[21]

Criminal Law -. " Necessity of Objections in
General

The Court of Criminal Appeals will only correct
plain error if the error seriously affects the
fairness, integrity or public reputation of the
judicial proceedings or otherwise represents a
miscamage ofjustice.

'A'CSTL A'fV © 2020 Tli&mson ReLitcis. No clsim to original U. S. Goveiiu.iei-'t Works.

Beverv. State. 467 P.3d 693 (2020)

Appendix 0022

2020 OK CR 13"

(22]

Criminal Law -,r» Mental cmdition or

Criminal Law <.» Comments on Evidence or
Witoesses

capacity

Testimony by neuropsychologist that defendant

Criminal Law i." Inferences from and Effect
of Evidence

had specific cognitive limitations was irrelevant

to whether defendant committed five chaiged
counts of Hrst degree murder, and, thus,

During closingargument, counsel enjoy a rightto
discuss fully from their standpoint the evidence
and the inferencesand deductions arisingiiom it

|23]

exclusion of testimony and neuropsychological
report from guilt phase of trial did not deny
defendant the opportunity to present a complete
defense as required by Sixth Amendment, where
neuropsychologist did not render an opinion as
to whether defendant was able to fonn necessary

Criminal Law .- Statements as to Facts,
Comments, and Aiguments

intent to kill or whether his confession was

Criminal Law ..-* Sentence or Punishment

voluntary, and defendant did not raise defense
based on insanity, intoxication, or lack of mental
capacity to commit murder. U. S. Const. Amend.
6.

A reviewing court will reverse a judgment
or modify a sentence based on a prosecutoi's
comments in opening or closing aigument
only where grossly improper and unwarranted
aigument afl'ects a defendant's rights.
|28]

[24]

Criminal Law •=• Statements
Comments, and Aiguments

Criminal Law <,- Relevancy in General
Criminal Law »- Evidence calculated

as to Facts,

to create prejudice against or sympathy for
accused

It is the rare instance when a prosecutoi's
misconduct during closing argument will be
found so egregiously detrimental to a defendant's
right to a fair trial that reversal is required.

CrhntnaILaw i- Cumulative evidence in

general
The constitutional righl of a defendant to
present a defense permits trialjudges to exclude

evidence that is repetitive, is only maiginally

125]

relevant, or poses an undue risk of harassment,
prejudice,or confusion of the issues. U.S. Const.

Criminal Law <i-» Summing up
Prosecutoi's comments in closing aigument
at murder trial were not so improper or
prejudicial as to render trial fundamentally
unfair, where trial court's rulings prevented

prosecutor's conduct from determiningoutcome

Amend. 6.

[29]

Criminal Law .'» Photographs and Other
Pictures

of trial.

Criminal Law ..- Photographs arousing
passion or prejudice; gruesomeness
|26(

Photographs are admissible if their content
is relevant and their probative value is not
substantially outweighed by their prejudicial

Criminal Law :- Admissibility
On appeal, the Court of Criminal Appeals
reviews decisions on the admission of evidence

effect.

for an "abuse of discretion," which is a
conclusion or judgment that is clearly against the
logic and effect of the facts presented.
[30]

Criminal Law ^ Evidence calculated

to create prejudice against or sympathy for
|27]

Criminal Law ;.— Medical and hospital

accused

records

vV(:STL''<, VV

-s'' 20/0 '!'tiorTisc...-i Heutei't:. No c:ain; rc oiiQinat l.i. S Govsriirneiii Wor^s

AppCndJX 0023

Bever^State, 467P.3d 693^2020)^

2020 OK CR 13

A person who fails to avail himself of an
opportunity to escape a situation of duress is not

When measuring the relevancy of evidence

against fts prejudicial effect, the court should

entitled to claim the defense.

give the evidence its maximum reasonable
probative force and its minimum reasonable
prejudicial value.

{31]

*697 AN APPEAL FROM THE DISTRICT COURT

Criminal Law ,.-» Burden of showing enor
Where there is duplication in photographic
images mtroduced at trial, an qipellant has the
biuden to show that the repetitionin images was
needless or inflammatoiy.

OF TULSA COUNTY; THE HONORABLE SHARON
HOLMES, DISTRICT JUDGE
Attorneys and Law Firms

APPEARANCES AT TRIAL
|32|

Criminal Law 1= Depiction of places; scene
of crime

Criminal Law •;•- Photographs arousing
passion or prejudice; gruesomeness

Photographs of crime scene were not needlessly
repetitive, and, thus, probative value
photogrqi hs

at

trial

on

five

counts

of

of first

degree murder was not outweighed by risk
that photographs would prejudicially inflame the
jury, where each photograph showed different

[33]

PUBLIC, DEFENDER'S OFFICE, 423 S. BOULDER AVE.,
Ste 300, TULSA, OK 74103, COUNSEL FOR THE
DEFENSE
STEPHEN

KUNZWEILER,

DISTRICT

ATTORNEY,

JULIE DOSS, SARAH McAMIS, ASST. DISTRICT
ATTORNEYS, 500 S. DENVER, TULSA, OK, 74103,
COUNSEL FOR THE STATE
APPEARANCES ON APPEAL

aspect of crime scene, and any duplication of

CORBIN BREWSTER, TULSA COUNTY PUBLIC,

subject matter shown in photographs was minor.

DEFENDER'S OFFICE, 423 S. BOULDER AVE., Ste 300,
TULSA, OK 74103, COUNSEL FOR APPELLANT

Criminal Law .•=• Instructions

MIKE

A

trial court's decision regarding jury

instructions is reviewed for an abuse of

(34]

CORBIN BREWSTER, MARNY HILL, TULSA COUNTY

HUNTER,

ATTORNEY

GENERAL

OF

OKLAHOMA, JENNIFER L. CRABB, ASST. ATTORNEY

GENERAL, 313 N.E. 21ST ST., OKLAHOMA CITY, OK,

discretion.

73105, COUNSEL FOR THE STATE

Homicide -<- Compulsion, necessity, or duress.

OPINION

Defendant who was chaiged with the first degree
murder of five family members was not entitled

LUMPKIN, JUDGE:

to claim defense of duress, even if duress were
an available defense, where defmdant failed to

Dl Appellant Michael John Beva- was tried by jury and found
guilty of five (5) counts of First Degree Murder (Counts IV) (21 O. S.Supp. 2012, § 701.7(A)) and one count of Assault
and Batteiy with Intent to Kill (Count VI) (21 O. S.2011,
§ 652(C)) in the District Court of TUlsa County, Case No.
CF-2015-3983. The jury recommended as punishment life in

take advantage of ample opportunities to escape
family home instead of killing family members,
including his younger siblings. 21 Okla. Stat.
Ann. § 156.

prison in each of Counts l-V, and twenty-eight (28) years in
prison in Count VI. The trial court sentenced accordingly,
[35)

.

Criminal Law 1" Compulsion or necessity;
justification in general

ordering the sentences to be served consecutively. It is from
this judgment and sentence that Appellant appeals.

Vr*;!;. ^.''' %2;j,;0 il]i.;rift^^K:-i:feii:-. !•';• . Jai'n :c cna.n;)l U S Govt;!;-i-^:'t Wv;v'

Beverv. State. 467P.3d 693 (2020)

AppendJX 0024

2QZOOKCR13

K2 On July 22, 2015, in Brokai Arrow, Oklahoma, 16year-old Appellant and his 18-year-old brother, Robert
Bever, murdered theu- mother, father, younger sister and two
brothers, and severely wounded another sister. The youngest
sister,who was almost two (2) years old, survived unhanned.

testified that the plan was for C.B. to die quickly and then
they would drag her body to die closet. However, C.B. did not
die quickly and fought back as Robert repeatedly stabbed her.
C.B. ran screaming from die bedroom and headed toward the
front door. As she ran, she heard her mother scream. C.B. ran

outside but was dragged bade inside the house.
^

P Robert Bever pled guilty to five (5) counts of first degree
murder and one count of assault and battay with intent to
kill. He was sentenced to life in prison without the possibility
of parole for each of the five (5) murders and a life sentence
for the assault with intent to kill. The sentences were ordered

to mn consecutively. Robert Bever testified for the defense
at Appellant's trial. He testified dial he did not see Appellant
kill anyone and took credit for killing all of his family
members. His testimony was fi-equently at odds with the
State's evidence. In particular, while he claimed he did not
see Appellant kill anyone. Appellant told police he had killed
three (3) of his family members.
*[4 The story of what happened the night of July 22 is
drawn laigely (rom the testimony *698 of C.B., Appellant's
thirteen-year-old sister, Robert Bever; and Appellant's pretrial statements to police. Prior to the day of the murders,
Appellant and Robert Sever, also referred to as the brothers,
had collected body annor and knives to be used in the murder
of their family. Those killings were to be a prelude to a crosscountry killing spree. The brothers sought to emulate certain
serial killers and intended to exceed the body count of recent
well-known mass shootings. The brothers had ordered guns
that were to be delivered to a local gun shop. They had yet
to be picked up, as the brothers needed someone over 21
to actually pick up the guns. The ammunidon, over 2,000
rounds, was to be delivered to tiieir home on July 23.

K5 Late in the evening on July 22, all the family members were
in bed except for Appellant, his brother Robert, C.B., and
their mother, April Bever. C.B. testified at trial that around
11:30 p.m., her mother told her to tell her brothers to do the
dishes. When she went to their bedroom, she found them

putting on body annor. She also noticed they had set several
knives out on the bed. C.B. had seen them put on the body

D? C.B. suffered multiple stab wounds, including some that
appeared to be defensive wounds. Several of the wounds
were so severe that her internal oigans protmded out of her
abdomen. When first responders arrived on the scene, she was
thought to be near death. However, despite the severity of the
wounds and the massive blood loss, she survived.

D8 Robert then stabbed his mother, April Bever. She
fought back a^ressively but ultimately succumbed to the
approximately 48 stab wounds to her amis, neck, face, chest,
and abdomen.

^9 Robert then asked Appellant where the others were and
Appellant replied that they were hiding. A younger brother,
ten-year-old C.P.B., and five-year-old sister, V. B., had heard
the commotion and run to a bathroom where they locked
themselves in. Appellant knocked on the door and said, "let
me in. He's gonna kill me". One of the children opened the
door, at which time Appellant entered and stabbed both of
them to death. C.P.B. had approximately 21 stab wounds to his
back, chest, head and neck. V.B. suffered approximately 23
stab wounds to her neck, back, chest, face and abdomen. Both
victims had defensive wounds. (At trial, Robert took credit
for killing C.P.B. and V.B. However, in pre-trial statements,
Appellant admitted to stabbing them).
KIO Appellant then went to his fathers home oflRce where
his twelve-year-old brother, D. B., had locked himself mside.
Appellant used the same ruse as before, telling D. B. to open
the door, that Robert was going to kill hnn (Appellant).
When D. B. opened the door, Appellant said to Robert, "he's
all yours". D. B.'s pleas to be spared were ignored. Robert
grabbed D. B. and stabbed him in the stomach. Ultimately,
D. B. suffered 21 stab wounds to his stomach, chest, head,
neck and back.

armor previously and knew about their extensive collection
of knives.

K 11 At some point, the brothers' father, David Bever, came out

of his room and Robert stabbed him repeatedly. David Bever
K6 When she arrived in their room. Appellant asked, "should
we do it right now?" Robert replied, "yes. " Aj^ellant told
C.B. to look at something on his computer. When she did,
Robert came up behind her and slit her throat. Robert Bever

,

ultimately suffered 28 stab wounds to his back, chest, neck
and abdomen.

";L'S1 I-A'.V '& 2020 1 lion^on Kt:iiteis. No ciaiin io odginsl li o. GovKifirnttnt lA'oi!<s.

Bever v. State, 467 P.3d 693 (2020)
2020 OK CR 13
^12 During the murder spree, Appellant had disabled Ae
home alarm system. Prior to his death, D.B. used Appellant's
phone to call 911. Appellant admitted he took the phone from

Appendix 0025
^17 The record on which Appellant's arguments are based
shows that at the close of the sentencing stage of trial, thejury
was instructed as follows:

D. B. and smashed it to the floor.

^13 Wth the murders concluded, the brothers ran to a creek
behind their house to hide. Officers arrived on the scene

at approximately 11:30 p.m. In their subsequent search of
the house, they discovered 23-month-old A.B. asleep in
an upstairs bedroom, untouched *699 by the murderous
rampage which had occurred on the floor below. Robert Bever
testifiedthat they had intended to kill A.B. by cuttmg off her
head. However, it appeared the brothers had forgotten about
her in the melee.

1)14 The brothers were ultimately located by policeand search
dogs near the creek. One of the dogs had bitten Appellant
in attempt to subdue him. Appellant was covered in dirt and
blood. The blood was later detennined to be from his mother.

1fl5 Forensic testing later showed Appellant's blood was
found on a knife handle, and the blade of that knife had a
mixture of blood from which his father, C.P.B. and D. B. could

not be excluded. For his part in the murder spree, Appellant
was convicted of five (5) counts of first degree murder and
one count of assault and battery with intent to kill. He was
sentenced to life in prison with the possibility of parole for
each of the five (5) murders and 28 years imprisonment for
the assault with intent to kill. The sentences were ordered to

run consecutively.
^16 In his first three propositions of enror. Appellant
challenges his sentence. Specifically, in Proposition I he
aigues that the trial coun's order for his seitences to be served
consecutively violates the Sixth and Eighth Amendments to
die United States Constitution and Oklahoma and Federal

case law because the juiy's verdict was that he was
"not irreparably comipt and pennanently incomgible." In
Proposition II, Appellant asgaes his consecutive sentences
violate the Eighth Amendment to the United States
Constitution and Oklahoma and Federal case law because

they do not provide him a meaningful opportunity for
release. And finally in Proposition III, Appellant contends his
sentence is excessive in violation of the Eighth Amendment
to the United States Constitution and Oklahoma and Federal

case law. To a certain extent. Appellant's propositions overlap.
However, we attempt to address them separately.

Should you unanimously find that Michael Bever is
irreparably corrupt and pennanently incorrigible,you are
authorized to consider imposing a sentence of life widiout
the possibilityof parole.
Ifyou do not unanimously find beyond a reasonable doubt
that Michael Sever is inreparably corrupt and pennanently
incorrigible, you are prohibited finm considering the
penalty of life without the possibility of parole. In that
event, the sentence must be imprisonment for life with the
possibility of parole.
(Instruction No. 54).
K18 The jiuy was also instructed, in part, "no person who
committed a crime as a juvenile may be sentenced to life
without the possibility of parole unless you find beyond a
reasonable doubt that the defendant is irreparably corrupt and
permanently incorrigible." (Instruction No. 57).
1)19 As to each murder conviction, the juiy found the
"Defendant is not irreparably corrupt and pennancntly
mcorrigible and sentence the Defendant to life with the
possibility of parole. " At the sentencing hearing, the judge
ordered the five (5) life sentences as well as the 28 years
imposed for Ae assault and batteiy with intent to kill
convictionto be served consecutively.
1[20 The majority of the arguments presented by both sides
in the appellate briefs were presented to the trial court in
sentencingmemoranda from the defense and the prosecution.
To the extent Appellantchallengesthe court's abilityto run the
sentences consecutively,our review is for abuse of discretion
as the state statute leaves that decision in the hands of the trial
coun. 22 O. S.2011, § 976. However, whether die trial court's

ruling is consistent with the current state of die law is an issue
this Coun reviews dte nowo. King v. State, 2008 OK CR 13, ^
4, 182P.3d842, 843.
1f21 In Proposition I, both the State and Appellant set forth
the legal background of the evolving principles of law in the
area of juvenile sentencing, focusing primarily on Graham
v. Florida, 560 U. S. 48, 130 S.Ct. 2011, 176 L.Ed^d 825

(2010), *700 Miller v. Alabama. 567 U.S. 460, 132 S.Ct.
2455. 183 L.Ed.2d 407 (2012),and Montgomery v. Louisiana,
577 U.S. —, 136 S.Ct. 718, 193 L.Ed.2d 599 (2016). The
basic premise of Appellant's argument on appeal is that his

IM'3'1 LA>V

© /;02R ! tioniso!', P.;;iilyr.=.. No ciairn to '-liginai I)::; C.:;ver';menl Wcrks.

Appendix 0026

Sever v. State. 467 P.3d 693(2020)
20200KCR13
Sixth and Eighth Amendment rights were violated by (he trial
court's ordering of his sentences to run consecutively despite
the fact the juiy found he was not irreparably corrupt and
permanently incorrigible.
1[22 Relying primarily on Apprendi v. New Jersey, 530 U. S.

466, 120 S.Ct 2348, 147 L.Ed.2d 435 (2000) and Ring v.
Arizona. 536 U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556
(2002) Appellant argues that the finding of "irreparably

decision to mn sentences consecutively, even if the coun
must make findings of fact beyond those made by the juiy
before imposingconsecutivesentences.Judges have long had
the discretion to run sentences concurrently or consecutively.

Setserv. United States. 566 U. S. 231, 236, 132 S.Ct 1463,
182L. Ed. 2d 455 (2012).
1126 Under state law, criminal defaidants have a statutoiy

corrupt and permanently incorrigible" is equivalent to an
aggravator in a death penalty case. He asserts that as the

right to have ajuiy help determine the sentence. 22 O.S.20 11,
§ 926. 1. Further, sentences for multiple offenses are to run
consecutively unless otherwise ordered by the trial court. 22

juiy in his case acquitted him of the alleged aggravator, this

O.S^011,§976.

acquittal prohibited the jury from imposmg a sentence that
would deny him a meaningful opportunity for release. He
contends that his right tojuiy sentencingprohibitedthe judge
from imposing a de facto sentence of life without parole.
Appellant contends that under Ring, he may not be exposed to
a penalty exceeding the maximum he would have received if
punished accordingto the facts reflected in the jury's verdict
He contends that his five (5) consecutive life sentences did
just that in violation of his rights under the Sixth, Eighth, and
FourteenA Amendments.

1|23 It is not necessaiyfor us to detenninewhether the finding
of'iireparablycorrupt and pennanently mcorrigible" is akin
lo the finding of an aggravating circumstance. The claim
on appeal is whether running the sentences consecutively
violated federal and state law.

124 Initially, none of the authorities cited by either side
involves cases of juvenile homicide ofiFenders sentenced to
multiple life sentences. Furdier, none ofAe authorides cited
by Appellant support a conclusion that the trial court's ruling
violated federal or state law.

[1] ^25 No cases have been cited or found where the
Suprmie Court or this Court have held that a defendant
is constitutionally entitled to jury saitencing. The Sixth
Amendment requires that Ae trial necessaiy to impose life
without parole on a juvenile homicide offender must be a
trial by juiy, unless a jury is aflfirmatively waived. Stevens

v. State. 2018 OK CR 11, 1 34, 422 P.3d 741, 750 (citing
Appiwdi. 530 U.S. at 490. 120 S.Ct 2348). However,
neitherthe Supreme Coun nor (his Court have found a Sixth
Amendment right to jury sentencing. In fact, both Miller and
Montgomery recognized that it is appropriate for a judge to
make sentencing decisions. In Oregon v. Ice, 555 U.S. 160,

168, 129 S.Ct. 711, 172 L.Ed.2d 517 (2009), the Supreme
Court said that Apprendi does not apply to a trial court's

*A'ES1t. A*. V •@2C'^i)

^27 A majority of this Court recently found no Eighth
Amendment violation in ordering multiple sentences for
juvenile homicide offenders to be served consecutively.
In Martinez v. State, 2019 OK CR 7, 442 P.3d 154 the
defendant was sentenced to life in prison for one count
of first degree murder and fifteen years in each of two
counts of shooting with intent to kill with the sentences
ordered to run consecutively. Martinez argued, much as
Appellant does, that his consecutive sentences constituted a
de facto sentence of life without parole for a crime committed
as a juvenile and dius, his sentences violated the United
States and Oklahoma Constitutions' ban on cruel and unusual

punishment pursuant to Miller and Montgomery. This Court
disagreed and explained:
... even after Graham, Miller. and Montgomery, defendants
convicted of multiple ofienses are not entitled to a volume
discount on their aggregate sentence. Thus, we hold that
where multiple sentences *701 have been imposed,
each sentence should be analyzed sqparately to detemine
whether itcomports with die Eighth Amendment under the
Graham/Miller/Montgomeiy trilogy of cases, rather than
consideringthe cumulative effect ofal] sentences imposed
upon a given defendant.

2019 OK CR 7, ^ 6, 442 P.3d at 156. (internal citation
omitted).

D28 Relying on Graham and Miller, this Court found that
a State is not required to guarantee eventual freedom to a
juvenile ofiFender. Id., at D 8, 442 P.3d at 157 (citing Graham,

560 U.S. at 74, 130 S.Ct. 2011; Miller, 567 U.S. at 479, 132
S.Ct. 2455). This Court concluded by finding, "[b]ascd upon
the length of [Martinez's] saitences and the current status
of the law, we fmd that [Martinez] has some meaningful
opportunity to obtain release on parole during his lifetime."
Id.

ri-sRn-. son Reuteis. No ciaii-i; ;c orini!'iB! U. ti yuvi;jin;:ier:t Wo(l<s

Append ix 0027

Bever v. State. 467 P.3d 693(2020)
2020 OK CR 13
1)29 This finding was upheld in Detwiler v. Slate. 2019 OK CR

20, 449 P.3d 873, where a majority of this Court said, "[w]e
thus find, as we did in Mwtinez, that the Eighth Amendment
analysis focuses on the sentence imposed for each specific
crime, not on the cumulative sentence for multiple crimes.
To do otherwise would effectively give crimes away." Id.,

2019 OK CR 20, D 6, 449 P.3d at 875. While the juvenile
defendant in Detwiler was convicted and sentenced for non-

homicide offenses, this Court found "[t]he Supreme Court
has not explicitly held that stacked sentences imposed in a
juvenile case—whether homicide or nonhomicide—should
be reviewed in the aggr%ate when conducting an Eighth
Amendment analysis." Id. TTiis Court rejected the contention
that the defendant's sentences viewed in the aggregate as
though they were one constituted a de facto sentence of life
without parole for crimes he committed as a juvenile. "Based
upon the length of each of [the defendant's] sentences,viewed
individually,and Ae cunrentstatus ofthe law, we findthat [the
defendant] has some meaningful opportunity to obtain release
on parole during his lifetime." Id., 2019 OK CR 20, ^ 8, 449
P.3d at 875-876.
[2] ^30 The fact that the jury found Appellant was
not irreparably conupt and pennanently incorrigible and
sentenced him to life in prison for the offense of murder
is immaterial to the trial court's discretion to order muhiple
sentences to be served consecutively. Based upon our review
of the current state of both federal and state law, the trial
court's order forAppellant's five(5) lifesentencesto be served
consecutivelydoes not violate his constitutionalrightsdespite
the jury's finding that Appellant was not iireparably corrupt
and permanently incorrigible. Proposition I is therefore
denied.

IP I Much of Appellant's Proposition II is a repeat of the
argument in Proposition I. However, his main focus in
Proposition II is that the consecutive sentences violate the
Eighth Amendment and federal and state case law because the
sentence does not provide him a meaningful opportunity for

K33 Aiyellant now asserts, as this Court noted in Martinez,
that both state and federal courts are divided over wheAer

the Eighth Amendment requires individual sentences to
be analyzed separately or whether the cumulative effect
of multiple sentences is the benchmark for compliance.
Appellant's assertion that our rationale in Marlines is "nothing
more tiian the expression of resistance to the clear intent
expressed in recent Supreme Court jurisprudence" misses the
mark.

(3) 1)34 This Court fully recognizesand faithfully dischaiges
its "independent duty and authority to interpret decisions of
the United States Supreme Court." Martinez, 2019 OK CR 7,
15, 442 P.3d at 156. As the State asserts, "there is no reason to

believe that this Court, and the many other courts which agree
with this Court, are willfully disregarding the Constitution,"
*702 1(35 While the Supreme Court has not specifically
addressed the issue raised in Appellant's case, the Court's
precedent regarding the history and propriety of consecutive
sentencing strongly supports this Court's decision in
Marlinez. A defendant, even a juvenile, who murders five
people (and who plans to murder many more) is simply
and fundamentally different than a defendant who murders
one person. Appellant's aiguments have not shown that our
decision in Martinez is contraiy to established law.
portion of this proposition. Appellant
asserts that the parole system in Oklahoma does not provide
the meaningful opportunity for release required by the Eighth
and Fourteenth Amendments. This is an entirely separate
argument fi-om that challenging the consecutive nature of
his sentences as ordered by the trial court. As such, we
find it is waived pursuant to Rule 3.5(A)(5), Rules of the
Oklahoma Court of Criminal Appeals, Title 22, Ch. 18, App.
(2020), which requires each proposition of error to be set out
separately in the appellate brief. See Baird v. Slate, 2017 OK
[4] p6

In

a

second

CR16, 1I28, 400P.3d875, 883.2

release.

p7

^32 As addressed in Proposition I, a majority of this Court
held in Marlinez that the State is not required to guarantee
eventual fi^edom to a juvenile offender and that consecutive
life sentences do not deny a juvenile hmnicide oflender
a meaningful opportunity for release on parole during his

individually, but argues that his sentences, when considered
in the aggregate are excessive and violate the Eighth
Amendment. To this extent, his argument is merely a reprise

lifetime.

Proposition III, Appellant claims his sentence is
excessive. He does not challenge any of the sentences
In

of his first two propositions.
|5] D38 We typically review claims of excessive sentence
under the principle that "this Court will not disturb a
sentence within statutory limits unless, under the facts and

Wl;;!ll.. ;i,'.-V

«s/ .;0;-'.y''1fic'ii:.'•;••';. R^tJlers Mo -.:i3ir;'! '.o '.;i'!ai;';ii l.'. £'.. (;;&</!;rr.(ti';ni V^c'.'y.y,.

Appendix 0028

Bever v. State, 467 P.3d 693 (2020)
2020 OK CR 13
circumstances of the case, it shocks the conscience of the

<j43 Ms. Knight testified that she interacted with Appellant

Court." Kelley v. Stale. 2019 OK CR 25, 1 18, 451 P.3d 566,

when he was enrolled as a student for the 2015-2016 school

572. Here, Appellant received the minimum punishment of
life in prison with the possibility of parole for each count of
first d^ree murder. These saliences were within statutory

year. She said that she provided Appellant with school
materials and books to read. It was her opinionthat Appellant
was respectful and seemed interested ui improving himself.

range. 21 O. S.2011, § 701.9(A).
W
(7|
|8] ^39 There is no absolute constitutional
statutory right to receive concurrent sentences. 22 O.S.2011,
§ 976. It is within the trial court's discretion whether
sentencesare run concurrently or consecutively. Id. An abuse
of discretion is any unreasonable or aibitraiy action taken
without proper consideratimi of the facts and law pertaining
to the matter at issue. Neloms v. State, 2012 OK CR 7, If 35,
274P.3d161, 170.
^[40 The record indicates the trial court reached its decision
to run the sentences consecutively after much research and
deliberation. During the sentencing stage of trial, the State
reincorporated all of its first stage evidence. This included
evidence that Appellant not only helped plan the massacre of
his family but also fully participated in the killings.
^41 The defense presaited three (3) witnesses. Dr. Ana
Mazur-Mosiewicz,a licensed clinicalpsychologist;Assistant
Public Defender Adam Bamett; and Sherri Knight, a teacher
at the Tkitsa County Jail. Dr. Mazur-Mosiewicz testified that
she conducted a neuropsychological evaluation of Appellant
in May 2016 (two (2) years before trial) at the TUIsa County
Jail. She testified that Appellant had an I. Q. of 85, which
according to the doctor was in the low range of average
intelligence. She testified that his intellectual dysfunction
could be the result of traumatic brain injury or a birth defect.
Dr. Mazur-Mosiewiczadmitted that she did not test Appellant
at the time of the crimes. However, it was her opinion that
as Awellant was 16 years old at the time of the crimes, and
given that his brain had not fully matured by that time, in a
high stress environment such as the murder scene, it was very
likely Appellant would have frozen in place and not known
what to do.

K42 Mr. Bamett testified that he interacted with Appellant
in 2015 when Appellant was in the Tkilsa County Jail. Mr.
Bamett's impression of Appellant was that he was either
"absolutely clueless and naive as to what was going on or he
was institutionalized *703 before he ever came in the door",

and that Appellant seemed remorseful.

D44 Additionally, sentencing memorandum prepared by the
or panics were considered by the judge. Also considered were
the wishes of some jurors who had written the judge a letter
expressing their desire for the sentences to be run concurrent,
as well as a victim impact statement from C.B.'s adoptive
mother detailing C.B. 's fear that Appellant would be released
from prison and kill her in order to finish what he staned.
(9| 1)45 Under the facts of the case and the cuirent state of
the law, including this Court's holding in Martinez, the trial
court did not abuse its discretion in running the sentences
consecutively. This proposition is denied.
110] 111] 1)46 In Proposition IV, Appellant contends he was
denied due process by numerous instances of prosecutorial
misconduct It is well established that u[w]e evaluate alleged
prosecutorial misconduct within the context of the entire trial,
consideringnot only the propriety of the prosecutor'sactimis,
but also the strength ofthe evidence against the defendant and
the correspondingaiguments of defense counsel." Sanders v.

State. 2015 OK CR 11, K21, 358 P.3d 280, 286. In a claim of
prosecutorial misconduct, "[r]elief is only granted where the
prosecutoi's flagrant misconduct so infected the defendant's
trial that it was rendered fundamentally unfair." Tafolla v.

Stale, 2019 OK CR 15. ^ 28, 446 P.3d 1248, 1260.
1(47 Appellant initially ai^ues the State failed to preserve
relevant evidence. Two items are at issue. The first is a

computer hard drive, identified as Item 18, seized from the
Bever home and provided to the Oklahoma State Bureau
of Investigation (OSBI) for analysis. The OSBI was unable
to analyze the hard drive because it would not "initialize."
The hard drive was subsequently retrieved, along with other
items of evidence, from the OSBI. However, the prosecution
was not able to subsequently locate the hard drive for trial
purposes.

K48 The other item is a journal allegedly kept by C.B. which
family members had turned over, along with other property
from the Sever home, to an auction house once the police
had concluded their investigation. An employee ofthe auction

house informed police that she had read a journal that she
thought was writtenby C.B. and whichwas tfioughtto contain

'I'yi. sii ':\\'

f;- 2s;?'J

''h&insa;'' H^uiarb, ^o c;ai"i

;a

oiiyii ^al i. i. s yi, i/"i!!i>i':ii;l W'^";s.

•iO

Appendix 0029

Bever v. State, 467 P.3d 693 (2020)
2020 OK CR 13
references to child abuse. The journal, or one resembling it,
was recovered by the police approximately one year after
the murders. There were pages torn out of the journal. The
employee who had read the journal could not tell ifthat was
the actual journal she had read. No references to child abuse
were found in the journal. No one could identify who tore out
the missing pages. The journal became part of the property
collected by the Broken Arrow Police Department and was
available for inspectionby the defense.
1)49 Appellant acknowledges that his challenges to the items
were raised before the trial court and that his objectionswere
denied. However, he aigues this Coun is free to grant reliefon
the grounds of misconduct "especialfy when the prosecutorial
misconduct in this case is weighed in its totality."
^50 While Appellant's aigument on appeal is prosecutorial
misconduct for the failure to preserve evidence, his cited

authority is Brady v. Maryland. 373 U.S. 83, 83 S.Ct. 1194,
10 L.Ed^d 215 (1963) which concerns the prosecution's
suppression of evidaice. Appellant does not claim that the

State actually suppressed evidenceafter ithad been requested
by the defense, that the evidence was favorable to his defense,
or that the evidence was material either to his guilt or
punishment, aiguments typical of a Brady claim.

Mosiewicz. Further, the defense did not ask C. B. whether she

kept a journal or whether she documented any incidents of
abuse.

153 As for the computer hard drive, all the evidence showed
that it was unreadable. Appellant has made no aigument offts
materiality.
^54 Any aiigument that the loss of the computer hard
drive or journal was done in bad faith is not supported
by the record. Neither Appellant's cited authorities nor the
authorities relevant to a claim of lost evidence nor the

record suppon Appellant's claim ofprosecutorial misconduct
regariing the handling of the computer hard drive or journal.
(I3] K55 Even assuming Appellant has made any showing
of error, this error is hannless beyond a reasonable doubt
Although it does not appear Aat this Court has considered
whether Th>mbetta and Youngblood errors can be harmless,
there appears to be no reason why such eirore could not
be hannless. In fact, "most constitutional errors can be

hannless." Duclos v. Slale, 2017 OK CR 8, 1| II, 400
P.3d 781, 784 (citingArizona v. Fulminante, 499 U.S. 279,
306, 111 S.Ct. 1246, 113 L.Ed.2d 302 (1991)). Evidence
of Appellant's guilt was overwhelming. He received the
minimum punishment. Any failure to preserve evidence,

K5I If Appellant's claim is that of prosecutorial misconduct
due to a loss of evidence, there are two (2) lines of Supreme
Court cases dealing with a loss of evidence. One line of cases

which has not been found or even claimed to be material

states that a defendant is entitled to relief if he can show

L. Ed. 2d 705 (1967). Accordingly, diis claim ofprosecutorial

that police destroyed *704 evidence which had apparent

misconduct is denied.

or exculpatory, is harmless beyond a reasonable doubL See

Chapman v. California. 386 U.S. 18, 24, 87 S.Ct. 824, 17

exculpatoiy value and he is unable to reasonably obtain
comparable evidence. See California v. D-ombetta, 467 U. S.

479, 484. 104 S.Ct. 2528, 81 L.Ed.2d 413 (1984). The otfier
line of cases provides a defendant with reliefifhe can show
the police, acting in bad faith, destroyed potentially useful
evidence. See Arizona v. Youngblood, 488 U.S. 51, 57, 109
S.Ct. 333, 102L.Ed^d281 (1988). This Court has recogpized
and applied both cases. See Afartinez v. Slate, 2016 OK CR 3,
ire 19-29, 371 P.3d 1100. No reliefis warranted in the present
case under either Tiwmbetta or Youngblood. Appellant has not

argued that eitheritem ofevidencewas exculpatory. At most,
he insinuates the items might have been useful to the defense.
112] ^52 Regarding the journal, the defense was able to
obtain either the actual journal itselfor a comparable one. If
Appellant's claim is true that the torn out pages referenced
abuse, the defense was able to put on evidence of alleged
physical abuse from C.B., Robert Bever, and Dr. Mazur-

V.'ii. STl. AW

^56 Appellant further finds prosecutorial misconduct in two
comments iwosecutors made to die media approximately
diree (3) months before trial. Defense counsel brought the
comments to the attention ofthe trial court as a violation of the

Rules of ProfessionalResponsibility.Now on appeal, his only
cited authority are the Rules of Professional Responsibility
and attorney discipline cases.

114j 157 In Harvell v. State. 1987 OK CR 177, II 10, 742
P.2d 1138, 1140, this Coun said, "disciplinaiy rules merely
establish standards which, if violated, subject an attorney
to discipline. They do not establish the parameters of the
constitutional right to a fair trial. " This Court determined
that "[w]hat is important is the effect which may ensue
and whether the comment and the attendant adverse pretrial
publicity had a prejudicial effect on prospective jurors. " Id.

© 2020 i'hcinsun Heuteis. ND c'yiin to original U. S, Goverrnii;:;! WU'KS.

11

Appendix 0030

Bever v. State, 467 P.3d 693 (2020)
2020 OK CR'13"
115] ^[58 Appellant does not make a claim of prejudicial
pre-trial publicity.The record reflectsjurors were thoroughly
screened for media exposure and for pre-detennined opinions
as to Appellant's guilt. Appellant has made no attempt to
show that the jurors who sat on his case were prejudiced by
the media or any pre-trial statements made by prosecutors.
Any misconduct in the prosecutor's comments did not deny
Appellant a fairtrial.
1)59 Appellant next claims the State directed psychologist
Dr. Shawn Roberson to evaluate him for a possible insanity
defense without notice to defense counsel. Defense counsel

raised tfiisclaim many times throughout the trial proceedings.
The State consistendy maintained that it had die consent
of Appellant's prior attorney for Robarson to interview

integrity or public reputation of the judicial proceedings or
otherwise represents a miscarriage ofjustice. Id.
^62 The challenged comments made in opening statement
were well within the scope of opening statement. See Hawell

v. State, 2006 OK CR 28. If 7, 138 P.3d 549, 556 F[t]he
purpose of openingstatement is to tell thejury of the evidence
die attom^s expect to present during trial. Its scope is
determined at the discretion of the trial court. ").
|22j [23] [24] ^Regardingclosingargument, this Court
has long allowed counsel for the parties a wide range of
discussion and illustration. Sanders v. State. 2015 OK CR 11,

the issue vras *705 raised, defense counsel actually seemed
unsure about a lack of notice, stating more than once that he
"could be wrong about the [alleged lack of notice/consent]"

^21, 358 P.3d 280, 286. Counsel enjoy a right to discuss fully
from their standpoint the evidence and the inferences and
deductions arising from it Id. We will reverse the judgment
or modify the sentence only where grossly improper and
unwarranted aigument affects a defendant's rights. Id. It is
the rare instance when a prosecutor's misconduct during

and that Dr. Roberson met with the defendant "without, I

closing ai-gument will be found so egregiously detrimental to a

Appellant In fact, at two (2) of the pre-trial hearings where

think, proper notice to our office."

defendant's right to a fairtrial that reversal is required. TitfoJla,

2019 OK CR 15, 1 28, 446 P.3d at 1260.
116] D60 If, in fact, the State did not have approval for any
interview. Appellant has failed to show any prejudice. An
insanity defense was not pursued and Or. Roberson did not
testily at trial. The defense ultimately provided their expert's
raw data to Dr. Robcrson. Appellant fails to show how his
trial would have been impacted if it had been established that

the State had not given the defense notice of Dr. Roberson's
interviewwith Appellant.

|2S| ^64 Reviewing the challenged comments made in
closing argument for plain error and otherwise, we find the
prosecutor's conduct was not so improper or prejudicial so as
to have infected the trial so that itwas rendered fundamentally
unfair. While some comments were objectionable, the trial
coun's rulings helped to ensure the prosecutoi's conduct did
not determine the outcome of the trial. See Pack v. State, 1991

OK CR 109, 117. 819P.2d 280, 284(citing200.S. §3001. 1.)
|17]
(18]
(19)
(20|
[21] 1161 Finally, AppellaMo relief is warranted and this proposidon is denied.
complains about two (2) comments made during the State's
opening statement, and numerous statements made during
[26] t65 In Proposition V, Appellant contends his due
the State's closing aiguments. We have thoroughly reviewed
process rights were violated by the trial court sustaining the
all of the alleged misconduct. Certain comments were met
State's objection to the first stage testimony of Dr. Ma2Mrwith contemporaneous objections. In those instances where
Mosiewicz on the grounds that the doctor's testimony was
the objections were sustained, any error was cured. Young
not relevant. Appellant asserts the trial coun's ruling denied
v. State, 2000 OK CR 17, K 50, 12 P.3d 20, 37-38. Other
him the fundamental right to present a complete defense as
the doctors testimony was relevant to the voluntariness ofhis
objectionswere overruled by the trial court, and our review is
therefore for an abuse of discretion. Certain other comments
statement to police, his state of mind during the crime, his
were not met with any objection.In those instancesour review
intellectual functioning as it related to malice aforethought,
and to rebut the State's theoiy that he was responsible for
is for plain enor. Malone v. State, 2013 OK CR 1, ^ 40,
293 P.3d 198, 211. Under the plain error test set forth in
some of the stabbings. On appeal, we review decisions on the
admission of evidence for an abuse of discretion. Pullen v.
Simpsonv. Stale, 1994 OK CR 40, 876 P^d 690, we detennine
Slate. 2016 OK CR 18, D 4, 387 P.3d 922, 925. An abuse of
whetherAppellant has shown an actual error,which isplain or
obvious, and which affects his substantial rights; See Duclos.
discretion is a conclusion or judgment that is clearly against
2017 OK CR 8, 1 5, 400 P.3d at 783. This Court will only
the logic and effect of the facts presented. Id.
correct plain error if the enw seriously affects the fairness,

Vtl. Si'L (M'V ^2020 Ttior'iyo''i Rcuiyrs. No dairn •o oiiyiii.i! U. S. Govtimineii! V\toiks

12

Bever v. State, 467 P.3d 693 (2020)
2020 OK CR 13

-Ap.pendjxOOSl

*706 ^66 The record indicates that in a bench conference,
defense counsel explained that he wanted the doctor to
describe her testing, the results of her testing, and her

eithw committed or did not commit the chained crimes,
merely putting the doctor's tests and results before thejuiy
was not relevant evidence.

conclusions as an expert in neuropsychology. Defense
counsel aigued that the doctor would testily tfiat Appellant,

{27j (28] 1T70 Excluding the doctor's testimony in the first
stage did not deny Appellant the opportunity to present a

"suffers from veiy specific cognitive limitations" and those
limitations should be considered by the jury in the context of
whetherAppellant'sdecisions"were fully fanned, mtentional

complete defense. In Rojem v. State, 2009 OK CR 15, If 9,
207 P.3d 385, 390 (cfting H<dmes v. South Carolina. 547

decisions or whether they were done through the filter of

U.S. 319, 126 S.Ct. 1727, 164 L.Ed2d 503 (2006)). this

limited cognitive ability."

Court acknowledged that every criminal defendant has a Sbdh

1f67 The prosecutor responded that in the doctor's report,
which had been provided to the court, the doctor never
rendered an opinion regardmg whether or not Appellant was
able to fonn the necessary intent to kill or whether his
confession was voluntary. Defense counsel did not rebut this
statement but insistedhe just wanted "to presentthe tests that
she ran, the results of those tests, her conclusions as a result

of those tests, and then leave it for argument."
^68 After reviewing the doctor's report, the judge noted
diat she was conc»ned by one of the last sentences in the
report which read, "[t]he lack of medical records related to
Mr. Bevel's fall medical and developmental history make it
difficult to delineate whether his neurocognitive and motor
deficfts are congenital in nature, represent a decline in
function as a result of the reported abuse, or both." Defense
counsel did not disagree with the judge but added, "all
we know is that he has deficits" and that the juiy should
be allowed to hear that. The judge reiterated her position
that the doctoi's explanations did not show that because of
these deficits. Appellant committed the charged crimes. The
judge ultimately decided that the doctor's testimony was not
relevant first stage testimony, as it would not assist thejiuy in
determining guilt or innocence. However, the testimony was
found relevant for the punishment stage.

Amendment right to present a defense. K[T]he Constitution
pennitsjudges 'to exclude evidencethat is "repetitive...,only
maiginally relevant" or poses an undue risk of "harassment,
prejudice, [or] confusionof the issues." ' " Holmes, 547 U.S.

at 326-327, 126 S.Ct 1727.
1|7I No assertions were made before the trial court that the

doctor could testify to any reasonable degree of medical
certainlythat Appellant would not have been able to form the
intent of malice aforethought. Defense counsel's attempts to
have the ctoctor testify in first stage to general deficiencies
Appellant may have had and then aigue that there was no
proof that he either killed or had the requisite malice to
kill was property thwarted by the trial court. Excluding the

doctor'stestimony from the firststage did not deny Appellant
the abilityto present a complete defense.
K72 Having tfioroughly reviewed Appellant's aiguments, we
find the trial court did not abuse its discretion in excluding
the doctor's first stage testimony and the court's mling did
not deny Appellant his Sixth Amendmait rights to present a
complete defense. This proposition is denied.
*707 ^73 In Proposition VI, Appellant contends he was
denied a fairtrial by the admission of "needlessly cumulative"
photographs. Specifically, he complains about three (3) sets

of photos. Appellant raised contemporaneous objections in
^69 The defense did not raise a defense based on insanity,
mental retardation/intellectual

disability, or intoxication.

Defense counsel did not make an offer of proof r^arding
the doctor's testimony. Based on defense counsel's failure

to rebut, and his actual acquiescence in the prosecutor's
ai-gument that the doctor never rendered an opinion regarding
whether or not Appellant was able to form the necessaiy
intent to kill or whether his confession was voluntaiy, the
trial court properly excluded the doctor's testimony in the
first stage as it was not relevant to a determination ofguih
or innocence. In the absence of any conclusion or testunony
tiiat because of any "deficits", mental or otherwise.Appellant

\\

l:I>Ti -<W

£>2U20

! liuiTisoii l-^iuiyiK.

i-te :;!cjri'; to

ori

each instance and those objections were overruled by the trial
court Therefore, our review on appeal is for an abuse of
discretion. Bench v. State, 2018 OK CR 31, K 59, 431 P.3d
929, 952. Unless a clear abuse of discretion is shown, reversal
will not be wairanted. Id.

[29|
(30|
(311 ^74 Photographs are admissible if their
content is relevant and their probative value is not
substantially outweighed by their prejudicial effect. Id, at ^
61, 431 P.3dat952. Relevant evidence is defined as "evidence
having any tendency to make the existence of a fact that is of

consequenceto the detenninationof the action more probable

gnal

U S.

Gcveii;inyiil Wu'ks

Sever v. State, 467 P.3d 693 (2020)
2020 OKCR^
or less probable than it would be without the evidence."
12 O. S.201I, § 2401. When measuring the relevancy of
evidence against its prejudicial effect, the court should give
die evidence its maximum reasonable probative force and its
minimum reasonable prejudicial value. Bench, 2018 OK CR
31, ^62,431 P.3d at 952. Where Acre is duplication in images,
the Appellant has <he burden to show that the repetition in
images was needless or inflammatory. Id.

-Apj)encJix_0032.
abuse its discretion in denying the requested instruction. This
propositionis denied.
1f79 Accordingly, this appeal is denied.

DECISION
^80 The JUDGMENT and SENTENCE is AFFIRMED.

(32] K75 We have thoroughly reviewed the challenged
photographs. State's Exhibits I20(A) and 128, 68 and 189,
and 157, 158 and 174. Each of the photographs is relevant

in showing a diflRsrent aspect of the crime scene. See Hogan
v. Sale. 2006 OK CR 19, ^ 31, 139 P.3d 907, 921. Any

Pursuant to Rule 3. 15, Rules of the Oklahoma Court
of Criminal Appeals, Title 22, Ch. 18, App. (2020), the
MANDATE is ORDERED issued upon the delivery and
filingof this decision.

duplication in die photographs is minor and not sufficientto
qualify as "needless repetition" which can inflame the jury
and result in eiror. See President v. Slate. 1979 OK CR 114,

LEWIS, P.J.: CONCUR IN PART/DISSENT IN PART

DK 9-17, 602 R2d 222, 225-226. The trial court did not abuse

KUEHN, V. PJ. : CONCUR IN PART/DJSSENT IN PART

its discretion in admitting the challenged photographs. This
proposition is denied.
[33| K76 In his fmal proposition of error. Appellant cimtends
the trial court abused its discretion in deiying his requested
instruction on duress. The trial court's decision r^ardingjuiy
instructions is reviewed for an abuse of discretion. Soriano v.

State, 2011 OK CR 9, ^ 10, 248 P.3d 381, 387.
^77 In denying die requested instruction,the trial court relied
on Long v. State, 2003 OK CR 14, 74 P.3d 105. Long states
that "duress is not a defense to the intentional taking of an
innocent life by a threatened person." 2003 OK CR 14, 112,
74 P.3d at 108. Appellant now seeks to distinguishLong from
his case and aigues that Long misinterprrted 21 O.S. § 156,
regarding the defense ofduress, and unproperly placed limits

HUDSON, J.: SPECIALLY CONCURRING
ROWLAND, J.: CONCUR
HUDSON, J., SPECIALLY CONCUR
*708 tl I concur in today's decision. I write separately to
address the views expressed in both dissents. Contraiy to
my colleagues' assenions, "the Eighth Amendment analysis
focuses on the sentence imposed for each specific crime, not
on the cumulative sentence for multiple crimes." Detwiler

v. State, 2019 OK CR 20, D 6, 449 P.3d 873, 875; see also
Martinez v. State, 2019 OK CR 7, 1 6, 442 PJd 154, 156.

Interpreting the decisions in Miller v. Alabama, 1 Graham

v. F/orida2 and Roper v. Simmons^ using the "punishment-

specific" approach championed by the dissent yields the
on the defense.
ridiculous consequence of enabling a juvenile offender to in
essence circumvent punishment for a crime by committing
|34]
[35] K78 Appellant's case oflFers no reason to multiple crimes. See Marlinez, 2019 OK CR 7, 1T 1, 442
reconsider Long. Appellant has failed to offer any evidence
P.3d at 157 (Hudson, J., Specially Concur). Oklahoma "is
that would have supported a jury instruction on duress. Even
not required to guarantee eventual freedom to a juvenile
assuming arguendo. Appellant was acting under duress, he
offender. " Id., 2019 OK CR 7, D 8, 442 P.3d at 157 (citing
Graham, 560 U.S. at 74, 130 S.Ct. 2011). That Bever has
had ample opportunity to extricate himself from the scene
priorto actually killinganyone. "[A] person who failsto avail
subjected himself to a severe penalty "is simply because he
himself of an opportunity to escape a situation of duress is
committed a great many [ ] offenses." OWeilv. Vermont, 144
not entitled to claim the defense." Hawkins v. Stale. 2002 OK
U. S. 323, 331, 12 S.Ct. 693, 36 L. Ed. 450 (1892). This case
CR 12, ^ 30, 46 P.3d 139, 146. Further, Appellant offers no
wholly exemplifiesthe soundness of this Court's analysis and
authority for his argument that juveniles should be treated
reasoning in Martinez and Detwilter.
difFerently than adults regarding the assertion of a defense
of duress. Based upon the foregoing, the trial court did not

'/.•'[;STLA*. V

© 2020 1 iiomson Reuters Mo daiic: to csiginal US. GovRininei'!iWen',';.

1.1

Bever v. State, 467 P.3d 693 (2020)

Appendix 0033

2ffi60KCRT3^

five years for parole eligibility under the 85% Rule). He
LEWIS, PRESIDING JUDGE, CONCURRING IN PART
AND DISSENTING IN PART:
tl I concur in affinning Appellant's convictions but would

modify his sentencesto comply with Millerv. Alabama, 567
U.S. 460, 132 S.CL 2455, 183 L.Ed.2d 407 (2012). The
Supreme Court in Miller did not prohibit a state court or
jury from ever imposing life without parole on a juvenile
homicide offender, but it did hold that a lifetime in prison is
disproportionatefor all but the rarestjuveniles,whose crimes
show theirpennanentincomgibilityor iireparableconupticm.
See Montgomery v. Louisiana, — U. S.—,

thus faces over 215 years in prison without any meaningfiil
opportunity for release. I would either modify the judgment
to concunent sentences, or grant Bever a parole hearing
to promptly consider his release from confinement after

thirty-eight years, three months from the date of sentencing,
and every three years thereafter. See 57 O.S.Supp.2018, §
332. 7(E)(])(granting reconsideration at three year intervals).
15 I am authorisad to state that Vice Presiding Judge Kuehn
joins in tfiisseparate writing.

136S. C1 718,

734, 193 L.Ed. 2d 599 (2016). Appellant's juiy unanimously
concluded that he is neither pennanentfy incorrigible nor
irreparably cormpt, and sentenced him to five tenns of life
imprisonment rather than life without parole.
^2 The trial court's subsequent order that those terms, as

well as the sentence of twenty-eight years for assault and
batteiy with intent to kill, be served consecutively effectively
"mandated that [this] juvenile die in prison" even ifthejuiy
"thought that hisyouth and itsattendant characteristics,along
with Ac nature of his crime," made a punishment witfi some
possibility of eventual release more appropriate. Miller, 567
U. S. at 465, 132 S. Ct. 2455. This is the same situation that

confhmted the Supreme Coun in Miller, and the same rule

applies.Bever'smandatory punishment1 oflifeimprisonment
without parole violates the Eighth Amendment
^3 The majority avoids the constitutional tension between the
July's Miller findings and the trial court's life-without-parole
order with its crune-specific, "no volume discount" theory of

punishment, 2 according to which Miller, Graham v. Florida,3
and logically even Roper v. Simmons, can only limit the
State's penalty options when sentencing a juvenile for a
single crime. I read those *709 decisions as punishmenlspecific: Regardless of the crime(s) of cmiviction, the State
may not ordinarily inflict certain penalties on juveniles—the
death penahy in Roper, peqietual imprisonment in Graham
and Mills'— because their lesser culpability, incomplete
psychosocial development, and greater capacity for change
than adults render those punishments cruel and unusual.
D4 Appellant must serve thirty-eight years, three months of
bisfirst life sentence before he is even eligibleto seek parole
onto tfie next one, and so on. 21 O.S.Supp.2015, § 13. 1(1);

Anderson v. Slate, 2006 OK CR 6, 1| 24, 130 P.3d 273,
282-83 (reckoningthat a life sentence is equivalent to forty-

v". -flSi'l.. ''. iV

& 20?. U Tliunisiin Fit.-iilsis

Mo ^li'iim

KUEHN, V.P.J.,CONCURRING IN PART/DISSENTING IN
PARTi
11 This is an unusually disturbing case involving extreme
violence and juvenile appellants. The judgment of the trial
court is coirect and Appellant's conviction must stand, but I
dissent to this Court's affinnation of Appellant's consecutive
sentences.Imposing fiveconsecutivesentenceson a homicide
offender without the requisite finding required to sentence a
juvenile to life without parole is error.
^2 Appellant received five life sentences and one sentence
of twenty-eight years, which the trial coun ordered to run
consecutively. I believe that consecutive sentences imposed
on a juvenile defendant functionally serves as a sentence of
life whhout parole. Marlinez v Stale, 2019 OK CR 7 D 3,
442 P.3d 154, 157 (Lewis, PJ., dissenting). The Pardon and
Parole Board measures a life sentence at forty-five years.
Because Appellant's sentences are 85% crimes, he would be
required to serve 215.05 years before he can be considered
for parole. These consecutive sentences guarantee he has no
reasonable opportunity for parole and amount to a sentence
of life without parole. See Budder v. Addison, 851 F.3d 1047,
1055-56 (10th Cir. 2017) (explainingthat "a sentencingcourt
need not use that specific [life without parole] label" for a
sentence to fit within that classification);see also Graham v.

Florida, 560 U.S. 48, 57, 70, 130 S.Ct. 201I, 176 L.Ed^d
825 (2010) (explaining that Graham's life sentence would

functionally serve life without parole).
D3 Appellant's juiy specifically found that he was not
irreparably comipt or permanently incorrigible.In homicide
cases, a juvenile may be sentenced to lifewithout parole only
y a jury finds them "irreparably corrupt and permanently
incorrigible." Stevens v. State, 2018 OK CR II, ^] 34-35,
37, 422 P.3d 741, 750; Miller v. Alabama. 567 U.S. 460,
477-78, 132 S. Ct. 2455, 183 L. Ed. 2d 407 (2012). Therefore,

io c. rioii'al

US.

Gove!rtir:-!il '.iVork:--

Bever v. State, 467 P.3d 693 (2020)
2020 OK CR 13 ~

——— - .

ADDend JX 0034
- . — —-—.—„

———.

„ -„„—_____——

Appellant lacks the requisite findings to be sentenced to life
without parole.

sentences during sentencing is, as the special concuirence

T(41 would affirm the sentencesofthe lower court, but modify
the tenns to be saved concurrently. This modification would,
as required by die jury's finding, do nothing more than assure
Appellant a reasonable opportunity to come before die Pardon
and Parole Board afterserving 85% of a lifesentence.Neither
I nor my dissenting colleague forgive the homd actions of
the Appellant, nor would our reasoning guarantee his release
during his lifetime. Appellant's juiy specifically did not find
the only condition which, as they were instructed, could
justify life without parole. Considering a 215 year sentence
as not equating to life without parole while ignoring the

^5 If there were any evidence that the jurors desired
consecutive sentencing, I am confident the Majority would
point itout as *710 justificationfor denying relief.But since
the jury's legal findings and sentiments go against the result
the Majority wants to reach, it simpfy ignores them. I dissent
because the result today is contrary to the jury's wishes.

juiy's collecdve decision and juror affidavits for concurrent

wants to call it, the only "ridiculous" result here.

^61 am authorizedto state PresidingJudge Lewisjoins in diis
separate writing.

All Citations

467P.3d693, 20200KCRI3
Footnotes

1
2

Appellant must serve 85% of his sentence in each count before becoming eligible for consUeration for parole. 21
O. S.Supp. 2014, §13. 1.
However, we take this opportunity to note that under 57 O. S.Supp. 2018, § 332. 7, referred to as the "Forgotten Man AcT,
the Legislature has enacted procedures to ensure that inmates, other than those serving a life sentence without parole,
shall be eligible for consideration for parole.

1

567 U. S. 460, 132 S. Ct. 2455. 183 L. Ed. 2d 407 C2012).

2

560 U.S. 48, 130 S.Ct. 2011, 176 L.Ed.2d 825 (2010).

3
1

543 U.S. 551, 125 S. Ct. 1183, 161 LEd. 2d 1 (2005).
Though Appellant's juiy re|ected the flpton of "life wnhout parole" sentences, the trial court's order that all of these
sentences be served consecutively produces a mandatory administraUve effect rendering Appellant ineligiblefor release
from prison on parole for his natural lifetime, and then some.

2

See a/so Martinez v. State, 2019 OK CR 7. II 6. 442 P.3d 154, 156 (holding "each [consecutive] sentence should be
analyzed separately to determine whether it comports with the Eighth Amendment"); Detwiterv. State. 2019 OK CR 20.

D 6, 449 P.3d 873. 875 (holding Eighth Amendment analysis under Graham and MBIer "focuses on the [oonsecuUve]
sentence Imposed for each specific crime"), and my dissenUng opinions in these cases.

3

560 U.S. 48, 130 S.Ct. 2011, 176 LEd.2d 825 (2010).

4

543 U.S. 551, 125 S.Ct. 1183. 161 L.Ed.2d 1 (2005).

Bnd of Document

© 2020 Thomson Reuters. No daim to original U. S.
Government Works.

Vk'ESTLAV/ £• 2020 Tlioriisoii Reiiteis. Nu ciciirn to oriC)iral l. J. 8. G(>vt:mr. ie!it V/Vorks.

16

Appendix 0035

The Honorable Sharon K. Holmes

14th Judicial District
Tulsa County Courtbouse
500S. Denva"Ave.

TUsa, Ok 74103-3832
Dear Judge Holmes,
This letter is submitted jointly by fhe undersigaed individuals, each of whom served as a
juror in State v. Bever, Tulsa County Case No. CF-2015-3983. We submit Ifais letter wiA great
respect for the Court. It was an honor to serve as a juror in yoin- courtroom. Thank you for your
service to our community and state.

As you kaow, we served as jurors wifli a srnse of great responsibility. To say fhe least, the
trial was demanding for us because of its extraordinary length and covSexsL However, we carefully
rwdered our verdicts accordmg to tiieJfacts, evidence, and the instructioiisof law we were given.
We concluded in our delibaationsthat Mr. Bevex should'be sentencedto lifein iMisoa •witfa
tiiepossibility of parole because tie is not "irreparably corrupt and peEmanentty mcanigible. " The
/,

verdicts reflect tiiis finding. It is our desire and hope Ifaat all six sentences will be concurraut witii
eadi other to encourage tihepossibility of a future life outside of prison for Mr. Bever. Consecutive
sentences would be inconsistent wilfa OUT verdict as it would prevent a meaningful opportumty for
parole.

Respectfully,

EUzabefli Woodson, Juror #9
David Dutton, Juror #12

Shannon Kirby, Juror #1
Ashley Conlon, Juror #11
Taminy Manrnng, Juror #6
Jamie Nix, Juror #8
BtHiaTNa

niOIBBBBBUE

UCTA

DATE:

